<html>
<title> - THE FISCAL YEAR 2008 BUDGET REQUEST FOR THE U.S. DEPARTMENT OF ENERGY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 THE FISCAL YEAR 2008 BUDGET REQUEST FOR THE U.S. DEPARTMENT OF ENERGY

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 8, 2007

                               __________

                            Serial No. 110-3


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                      U.S. GOVERNMENT PRINTING OFFICE
35-447 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 










                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

                 Bud Albright, Minority Staff Director

                                  (ii)










                             C O N T E N T S

                              ----------                              
                                                                   Page
Baldwin, Hon. Tammy, a Representative in Congress from the State 
  of Wisconsin, opening statement................................    12
Barton, Hon. Joe, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
Boucher, Hon. Rick, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     4
Burgess, Hon. Michael C., a Representative in Congress from the 
  State of Texas, prepared statement.............................    16
Butterfield, Hon. G.K., a Representative in Congress from the 
  State of North Carolina, opening statement.....................    13
Cubin, Hon. Barbara, a Representative in Congress from the State 
  of Wyoming, prepared statement.................................    16
Dingell, Hon. John D., a Representative in Congress from the 
  State of Michigan, opening statement...........................     2
Doyle, Hon. Mike, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    10
Engel, Hon. Eliot L., a Representative in Congress from the State 
  of New York, opening statement.................................    15
Eshoo, Hon. Anna G., a Representative in Congress from the State 
  of Califonia, opening statement................................     7
Ferguson, Hon. Mike, a Representative in Congress from the State 
  of New Jersey, opening statement...............................     8
Harman, Hon. Jane, a Representative in Congress from the State of 
  California, opening statement..................................    11
Hill, Hon. Baron P., a Representative in Congress from the State 
  of Indiana, opening statement..................................    14
Inslee, Hon. Jay, a Representative in Congress from the State of 
  Washington, opening statement..................................    11
Matheson, Hon. Jim, a Representative in Congress from the State 
  of Utah, opening statement.....................................    13
Murphy, Hon. Tim, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     5
Pallone, Hon. Frank Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
Schakowsky, Hon. Jan, a Representative in Congress from the State 
  of Illinois, opening statement.................................    14
Solis, Hon. Hilda L., a Representative in Congress from the State 
  of California, opening statement...............................    11
Stupak, Hon. Bart, a Representative in Congress from the State of 
  Michigan, opening statement....................................     9
Sullivan, Hon. John, a Representative in Congress from the State 
  of Oklahoma, opening statement.................................     9
Upton, Hon. Fred, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
Wynn, Hon. Albert R., a Representative in Congress from the State 
  of Maryland, opening statement.................................    15

                                Witness

Bodman, Hon. Samuel, Secretary, U.S. Department of Energy........    16
    Prepared statement...........................................    58


 THE FISCAL YEAR 2008 BUDGET REQUEST FOR THE U.S. DEPARTMENT OF ENERGY

                              ----------                              


                       THURSDAY, FEBRUARY 8, 2007

                          House of Representatives,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:09 a.m., in room 
2123 of the Rayburn House Office Building, Hon. John D. Dingell 
[chairman of the committee] presiding.
    Members present: Representatives Markey, Boucher, Pallone, 
Eshoo, Stupak, Engel, Wynn, Green, DeGette, Capps, Doyle, 
Harman, Allen, Schakowsky, Solis, Gonzalez, Inslee, Baldwin, 
Ross, Hooley, Matheson, Butterfield, Barrow, Hill, Barton, 
Upton, Stearns, Whitfield, Cubin, Shimkus, Wilson, Pitts, 
Walden, Terry, Ferguson, Sullivan, Murphy and Burgess.
    Staff present: Sue Sheridan, Bruce Harris, Jonathan 
Cordone, Chris Treanor, Seth, Alec Gerlach, Sharon Davis, chief 
clerk; and Elizabeth Ertel.

    The Chairman. Good morning. The committee will come to 
order.
    The purpose of today's full committee hearing is to receive 
the testimony from the Secretary of Energy regarding the 
President's fiscal year 2008 budget request. Mr. Secretary, 
welcome to the committee.
    As I explained at Tuesday's hearing, the chair is going to 
follow slightly different procedures with respect to opening 
statements and questions during full committee hearings. This 
is going to be simply to expedite the business of the committee 
and see to it that we can not only conduct the business but 
also can treat all Members fairly according to clear and 
understandable rules.
    Now, consistent with the rules and past practices of the 
committee, the chairman and the ranking member of the full 
committee will be recognized for a 5-minute opening statement. 
Today the chairman and the ranking member of the subcommittee 
on Energy and Air Quality will be recognized for 3-minute 
opening statement. All other Members will be recognized for 1-
minute opening statements but they may waive their opening 
statements for additional 1-minute of questioning during the 
first round. The chair will recognize Members who are here when 
I called the meeting to order by order of their seniority on 
the full committee. Once all these Members have delivered or 
waived an opening statement, the chair will recognize all 
remaining Members in the order that they arrived at the 
hearing. The clerks will keep a careful accounting of this 
attendance to be assured that it is properly dealt with. The 
chair will also recognize Members for the purpose of 
questioning Secretary Bodman under the same procedures just 
outlined.
    The chair reminds Members, as previously noted, that 
Members and staffs are invited to a briefing by the 
Intergovernmental Panel on Climate Change regarding his 
recently announced fourth assessment report tomorrow at 10 a.m. 
The chair suggests very strongly that Members should be here 
because this is a matter that is going to receive full and 
vigorous attention of this committee.
    The Subcommittee on Energy and Air Quality will hold two 
hearings next week on global climate change: Tuesday at 10 a.m. 
to hear the views from the private sector panels and Wednesday 
at 10 a.m. to examine how human activity has affected global 
warning.
    Before we proceed, I think most of the Members know that 
our friend and colleague, Charlie Norwood, has been fighting 
cancer with dignity and with courage. He has decided, however, 
to decline further treatment and will be returning home to 
Augusta, Georgia. His service in this House and on this 
committee has been one of great distinction and great honor. My 
wife Debra and I will be praying for him and his family during 
this difficult time, and I know that his family would 
appreciate your thoughts and prayers also.
    The chair now recognizes himself for the purposes of an 
opening statement for 5 minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Secretary, we are pleased to welcome you back to the 
committee to discuss the fiscal year 2008 budget request of 
your Department. This is an important opportunity for the 
committee to understand the Department's priorities and for 
you, Mr. Secretary, to hear the concerns of committee members.
    First, we are going to confront the issue of climate 
change. As you know, the committee is going to endeavor to 
write legislation addressing this issue, a complex and 
difficult matter we are going to have to work very hard on. We 
seek and we hope that we can count on the administration's 
involvement, and I mean, that, Mr. Secretary. It is important 
that the members of the committee understand the actions of 
Federal agencies to date as well as the fiscal year 2008 budget 
proposal's impact on these programs. In addition, Members need 
to know the administration's position on the question of 
climate change legislation and all the subtleties and issues 
that are associated therewith. I have seen recent press reports 
quoting you on the matter and I am sure the committee will have 
questions later for you to better understand your statements 
and position.
    Second, the Department administers a wide variety of 
statutory responsibilities that we will want to proceed on and 
to discuss with you, Mr. Secretary. For example, the Energy 
Policy Act of 2005 included an array of statutory deadlines on 
energy efficiency and conservation matters that are important 
for both energy independence and reducing greenhouse gas 
emissions. In particular, the Department does not have a strong 
record in meeting appliance efficiency rulemaking deadlines. 
Representatives Boucher, Markey and I have asked the Government 
Accountability Office to examine this problem, and I am sure 
Members will have questions for you on this matter.
    Mr. Secretary, third, I would raise the Yucca Mountain 
nuclear waste repository program. This has been a program in 
much disarray and the Department has estimated that it will 
file a license application with the Nuclear Regulatory 
Commission by 2008, which the Commission must evaluate for 
scientific merit. If the Commission adopts this proposal or 
grants approval, DOE said that it could begin accepting waste 
at Yucca Mountain by 2017. None of this, however, can occur if 
the Department lacks the necessary funding. As you know, Mr. 
Secretary, the committee was disappointed that the 
administration sent a bill to Congress last year without fully 
funding the necessary reforms. These reforms would ensure that 
the contributions of ratepayers to the nuclear waste fund are 
preserved for their intended purpose and not dissipated for 
other extraneous and conflicting purposes. Absent reform, 
consumer funds are in peril and so is the program, and we all 
know that a major piece of litigation is going to continue to 
bother you and the Department because of the failure of the 
Government to properly deal with these matters.
    Finally, Mr. Secretary, you will probably be asked about 
repeated security breaches at Department facilities, 
particularly Los Alamos National Laboratory. This was a matter 
of concern to us long years ago and seems to remain a thorny, 
difficult and poorly handled problem.
    Mr. Secretary, you have appeared before this committee on 
prior occasions and I am satisfied that you can and will be an 
honest broker. I know that you understand that the tough 
questions to be asked today are part of the responsibilities of 
the members of the committee and that they will support 
present, past and future work of the committee. I am grateful 
for the work you do at the Department on behalf of the American 
people and for your appearance before this committee, and I 
want you to know the affection and respect in which you are 
held by the current occupant of the chair. I will note, Mr. 
Secretary, that we will probably follow up with some questions 
in writing which will be sent to you either by mail or other 
way, and that we will be requesting your answer to these 
questions so that we might have a more full record and the 
record will of course remain open for the purpose of receiving 
those answers.
    The chair now recognizes my distinguished friend from 
Michigan, Mr. Upton, for 1 minute.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman. I had stitches so my 
shoulder is particularly sore this morning.
    I want to share the chairman's remarks and echo his remarks 
for the kind words and the competence, Mr. Secretary, that you 
have exhibited as Secretary of the Department of Energy, a very 
important spot as we look to this next year and to the final 2 
years of the Bush presidency.
    I for one am a strong supporter of nuclear power. I went 
through the budget and looked at the nuclear waste trust fund 
and saw the increases in essence from $17 billion in 2006 to 
what will be nearly $20 billion in 2008, so one of the things 
that I will be asking in my questions is the continued 
committee of the administration to push to get this particular 
facility in Nevada open, but I also want to compliment you on 
the increase in alternative energy. That remains a priority not 
only with this administration but certainly Members on both 
sides of the aisle. We look forward to your leadership and to 
your discussion this morning.
    I yield back my time.
    The Chairman. The chair thanks the distinguished gentleman. 
The chair recognizes now our good friend from Virginia, the 
chairman of the subcommittee, Mr. Boucher. Three minutes.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. Thank you very much, Mr. Chairman, and 
welcome, Secretary Bodman. We are delighted to have you with us 
this morning, and I want to thank the chairman for providing 
this opportunity to hear from the Secretary regarding the 
Department of Energy's priorities for the fiscal year 2008 
budget request, and with this hearing we can begin to focus on 
what the Department's priorities are for the entire 110th 
Congress.
    I am particularly interested today in hearing about the 
budget request for coal and for clean coal technologies 
including carbon sequestration. The advancement of carbon 
sequestration technologies is essential to ensuring that coal, 
which is our nation's most abundant energy resource, can 
continue to play a vital role in the national fuel mix at a 
time of a carbon-constrained economy, and so having a clear 
understanding of the status of carbon sequestration 
technologies and what the Department intends to do in order to 
advance those technologies to the point where they can be 
commonly utilized is very important to us.
    In addition, I look forward to hearing from the Secretary 
regarding the administration's efforts with regard to 
implementation of the loan guarantee program for alternative 
transportation fuels that we authorized as a part of EPACT 
2005. To date, there have been no loan guarantees issued under 
the program and I understand that the continuing resolution 
which is currently pending includes an appropriation of $7 
million to administer the program and provides the potential to 
guarantee up to $4 billion in loan guarantees. In addition, it 
is my understanding that the Department's fiscal year 2008 
budget includes a request of $9 billion for loan guarantees as 
well as $8.4 million to operate the administrative office. 
While I think it is encouraging that we see this movement, I am 
concerned about the pace of this program and the fact that we 
haven't seen guarantees put forward to date and would welcome 
your comments about why that hasn't happened and what you 
foresee happening in the near term.
    I very much look forward to a discussion of these and other 
matters that are of importance to our Nation's security and 
again I thank the Secretary for joining us here this morning 
and thank the chairman for providing this opportunity. I yield 
back.
    The Chairman. The chair thanks the distinguished gentleman. 
The chair now recognizes the gentle lady from Wyoming, Ms. 
Cubin, 1 minute.
    Mrs. Cubin. Thank you, Mr. Chairman. I waive my opening 
statement so that I have an extra minute for questioning.
    The Chairman. The chair recognizes now the distinguished 
gentleman from Nebraska, Mr. Terry, for 1 minute.
    Mr. Terry. I will waive.
    The Chairman. The gentleman waives also. The chair 
recognizes now the distinguished gentleman from Pennsylvania, 
Mr. Murphy.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman. You know, as our 
Nation looks towards energy independence, it is very important 
that we look at our energy security, our economic security, our 
national security and note how they are closely intertwined. In 
this budget, there is a number of things which I am pleased 
with that is going to help us move towards some of that energy 
independence and security with moves towards such things as 
nuclear technology and looking at how that is helpful as a 
clean energy source.
    I must admit though that I continue to be very concerned 
about some of the cuts and what is going on with clean coal 
technology, particularly as it may relate to some of our 
national energy technology labs. One is located in my district. 
I think it is very important to recognize that while parts of 
the world may only have a few decades left of oil resources, we 
have over a couple centuries left of coal and we need to be 
working towards ways that we can work at having clean coal 
technology and maintain those investments. We have abundant 
coal throughout the Nation and as needed for our manufacturers. 
Our manufacturers are also concerned that when it comes to 
natural gas and coal used for energy that by having the higher 
costs for that, we are in a position where we are driving more 
jobs out of our Nation unless we reach some answers to that. So 
I am hoping as we go through this some of the issues that we 
can work towards are increasing some of that funding for 
research for clean coal technology, eliminating emissions for 
the sake of our health but also for the sake of our jobs and 
our Nation, and I am pleased to have this time and I welcome 
and I am looking forward to the Secretary's comments on these 
issues.
    Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
chair recognizes now the gentleman from New Jersey, Mr. 
Pallone, for 1 minute.

 OPENING STATEMENT OF HON. FRANK PALLONE JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. This budget proposal 
seems to be at odds with the administration's recent promises. 
During the State of the Union, the President referred to the 
serious challenge of climate change and suggested an initiative 
to reduce our dependence on oil, and these are certainly noble 
goals but I am afraid the reality doesn't match the rhetoric. 
If the President were serious about clean energy, perhaps he 
wouldn't slash energy efficiency and renewable energy funding 
by 18 percent from current levels. Perhaps he wouldn't zero the 
entire geothermal and hydropower programs or sharply reduce 
critical energy saving programs like weatherization assistance, 
and if he realizes the serious challenge of climate change, he 
wouldn't propose an alternative fuel standard that has no 
mechanism for limiting carbon emissions, meaning that it could 
actually exacerbate global warming.
    The President should simply do the right thing and support 
mandatory controls on carbon emissions, and I am still the 
optimist and I hope that the President can live up to his 
rhetoric.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks the distinguished gentleman 
and the chair recognizes now my good friend and colleague from 
Texas, Mr. Barton, for 5 minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman, and welcome back, Mr. 
Secretary. It is always good to have a friend before the 
committee.
    We are here to review the fiscal year 2008 budget of the 
Department of Energy. I will note that in the last several 
years since you have been the Secretary, it is my opinion that 
the Department's performance has improved and I want to 
congratulate you on that. We do want to keep the trends going 
in the right direction, given the state of the energy markets 
both in our country and overseas. That is not an easy job.
    There are two issues before this Congress that seem to be 
converging at the same time. One is the perennial issue of 
energy security. The other is what is now called global warming 
or climate change. Energy security has preoccupied this 
Congress and our country since the Department of Energy was 
created back in the 1970's. Global warming is becoming a larger 
and larger issue for the public each day. It also has not only 
policy significance but political significance. This may be the 
year that we have a meeting of those two issues at the same 
time. Because of the mission of the Department and Energy and 
its expertise, the Department is going to be right in the 
middle of that. I hope the Energy and Commerce Committee, is 
also going to be in the middle of it since we are the committee 
of the Congress with the greatest depth and greatest amount of 
experience on both sides of the aisle.
    The Energy Policy Act of 2005 gave your Department greater 
responsibilities for energy efficiency, electricity 
transmission and security, nuclear power, clean coal 
development, renewable energy, hydrogen and of course oil and 
gas. All of the Energy Policy Act authorities are central to 
the debate on energy security and global warming. The President 
has announced plans in his State of the Union address this year 
to have a goal of 35 billion gallons of alternative fuels by 
2017 and wants to reduce gasoline usage by 20 percent over the 
next 10 years. Again, your Department is right in the middle of 
those initiatives.
    The challenge ahead is daunting. It is going to take 
leadership and vision to successfully manage all of these 
programs and initiatives to ensure a bright future for America. 
The President's budget is a road map but just that, a road map, 
to show how we can balance priorities and get the job done. I 
certainly hope that we can work together on the President's 
budget and with this committee to help make some of those plans 
realities.
    We need more energy here in the United States, not less. We 
expect that our electricity production is going to increase by 
50 percent to meet the growing demand over the next 15 to 20 
years. That is average of 2 to 3 percent a year. That is just 
to supply the current demand for a growing job-creating 
economy. That is not a bad thing that our electricity demand is 
increasing. It is a good thing because United States is the 
most productive economy in the world. As we use more energy, we 
produce more goods and services, not just for the United States 
of America but for the entire world economy.
    On the transportation side, we know that in the short term 
we are going to have to import more oil and there are things 
that we could do in this committee, in fact, this committee has 
done some of those things in the last Congress that would 
increase the fuel efficiency. Hopefully the bill that passed 
this committee and passed the House but didn't pass the Senate 
might be a bipartisan vehicle for increasing fuel efficiency 
standards in this Congress. It is my view that every source of 
energy that makes any sense at all should be reviewed and see 
if we can enhance it, make it more efficient, make it more 
available for the consumers of the United States. I think the 
United States has the ability to produce more energy. I think 
it can do it in an environmentally affordable and 
environmentally safe way. If we have more energy at affordable 
prices that is produced in an environmentally safe fashion, we 
are going to have a stronger economy and more opportunities for 
our citizens.
    Again, Mr. Secretary, we appreciate you being here and we 
look forward to hearing your testimony. Thank you.
    The Chairman. The gentleman's time has expired. The chair 
recognizes the distinguished gentlewoman from California, Ms. 
Eshoo, for 1 minute.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman. Mr. Secretary, welcome 
to the committee.
    While there is much that I don't agree with in the 
administration's approach to energy policy, I do want to 
commend you and DOE Undersecretary for Science, Dr. Ray Orbach, 
for the commitment you have made to funding science at DOE in 
the last two budgets, and it is very important for our country 
and I would like to start out on a very positive note by 
recognizing this. I think this is exactly the kind of 
investment that my constituents in Silicon Valley, leaders as 
you know in academia and high technology have been calling for 
for years in order to maintain our Nation's economic and 
technological leadership. So I want to commend you for that.
    Speaker Pelosi and many of my colleagues worked on an 
effort that we will bringing forward in the Congress called our 
innovation agenda, and in that proposal we call for doubling 
the budget for the Office of Science as well as the National 
Science Foundation and other agencies. These are really 
nonpartisan issues. Therefore, there should be a bipartisan 
effort and I hope that we can work together on it.
    I also agree with the administration's call for reducing 
our dependence on foreign oil by embracing alternative fuels. 
What I have very serious concerns about are the fuels that the 
administration plan considers alternatives which I believe will 
undermine air quality and the effort to reduce greenhouse gas 
emissions.
    So thank you for being here, I look forward to working with 
you.
    The Chairman. The time of the distinguished gentlewoman has 
expired. The chair recognizes now the gentleman from Illinois, 
Mr. Shimkus, for 1 minute.
    Mr. Shimkus. Thank you, Mr. Chairman. I will waive.
    The Chairman. The gentleman has waived. The chair 
recognizes now the distinguished gentleman, Mr. Ferguson, for 1 
minute.

 OPENING STATEMENT OF HON. MIKE FERGUSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Ferguson. Thank you, Mr. Chairman. Thanks for holding 
this hearing, and I appreciate the Secretary for being here 
with us today.
    I am pleased to see the President's budget reflects some 
investments in renewable energy. In my home State of New 
Jersey, the market for solar power is one of the fastest 
growing solar markets in the country. In 2001, our State began 
offering 70 percent rebates on solar power installation. Five 
years later, some 2,000 homes and businesses have taken 
advantage of this program and there continues to be a long 
waiting list. I am particularly proud that Halls Warehouse 
Corporation, which is a company in South Plainfield, New 
Jersey, in my district has recently completed installing 8,000 
solar panels on top of their refrigerated warehouses. It is the 
largest roof-mounted solar electric system in the Nation and it 
is expected to save this particular company $600,000 a year in 
energy costs and reduce C0\2\ admissions by 24,000 tons over 
the next 30 years. Now, I realize the importance of making 
solar energy systems more accessible to homeowners--we have 
talked about this a little bit--and businesses as well. That is 
why in the last Congress I introduced the Clean and Green Solar 
Tax Credit Act which would extend the solar tax credits that 
were in our Energy Policy Act. I plan to expand upon this and 
reintroduce it in this Congress, and I thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
chair recognizes now the distinguished gentleman from Michigan, 
Mr. Stupak.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman. Mr. Secretary, welcome 
to the committee. As the new chairman of Oversight and 
Investigations Subcommittee, I look forward to working with you 
and your staff. The subcommittee has already held an important 
hearing on the security at the Los Alamos National Lab and I 
appreciate your continued cooperation and assistance in this 
issue.
    For the past several years Americans have paid record-high 
prices to fill up their cars and heat their homes from industry 
to agriculture, businesses continue to struggle with wide 
energy price fluctuations. As the President has stated in 
several of his State of the Union speeches, we remain 
dangerously dependent on foreign energy sources. Unfortunately, 
I see nothing or very little from the President's 2008 budget 
that will change this any time soon. The President's budget 
drastically cuts proven programs such as LIHEAP, weatherization 
assistance, building efficiency programs and vehicle 
technologies. These cuts place the burden of the high energy 
prices on lower-income Americans and small businesses. The 
Federal Government should be investing in these programs as 
well as wind, solar, geothermal and other renewable energy 
sources to help Americans with high energy prices now. 
Unfortunately, the President's budget seems focused on 
increasing Federal handouts to his friends in big oil, 
increasing the funding for fossil fuel energy up by 33 percent. 
We can do better.
    Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
chair now recognizes our good friend and colleague, Mr. Pitts, 
for 1 minute.
    Mr. Pitts. Mr. Chairman, I waive.
    The Chairman. The chair recognizes our good friend and 
colleague, Mr. Sullivan, for 1 minute.

 OPENING STATEMENT OF HON. JOHN SULLIVAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Sullivan. Thank you, Mr. Chairman. I don't have a lot 
to say but I want to thank you, Mr. Secretary, for being here 
today and I think this is an important time in energy policy in 
this country.
    We have a lot to do, and I am for a lot of alternative 
fuels, I support them, I am going to continue to support them. 
I think it is exciting that we are doing that, but we can never 
forget about domestic production of oil and gas. We are never 
going to be able to totally eliminate the use of gas and oil. 
We need to make sure too, I think it is important we do all we 
can with secondary recovery, going in drilling domestically on 
the outer continental shelf offshore, doing all we can here 
domestically, and I think too that a lot of people, especially 
on the left, think that the oil and gas industry is bad, people 
are like J.R. Ewing that are in it, and that is not true. They 
don't all go out drinking at lunch and drive a Cadillac with 
horns on it. They are good people. Mainly the domestic oil and 
gas that is produced in the United States is done by 
independent producers and they are like small-business people, 
and I think that they need to be recognized more and they are 
not, and there is always a lot of byproducts that come from oil 
and gas that need to be talked about, and I guess what I am 
trying to say is, sir, that we need to have some kind of 
educational effort out there maybe in the Department of Energy 
and other places as well that can educate us on this important 
issue. Thank you.
    The Chairman. The time of the gentleman has expired. The 
chair recognizes now the gentlewoman from California, Ms. 
DeGette, for 1 minute.
    Ms. DeGette. Colorado, Mr. Chairman. I will waive my 
opening.
    The Chairman. The gentlewoman passes. The chair recognizes 
now the distinguished gentlewoman from California, Mrs. Capps, 
for 1 minute.
    Mrs. Capps. Thank you, and I will waive my opening 
statement.
    The Chairman. The gentlewoman waives. The chair recognizes 
now the distinguished gentleman from Pennsylvania, Mr. Doyle, 
for 1 minute.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Mr. Chairman. Welcome, Mr. Secretary.
    After declaring us addicted to oil in his State of the 
Union address, I was disappointed last year to see that the 
President did not provide you with the additional resources 
required to break this addiction. Sadly, we see this trend 
continue this year, even after the President has declared that 
America is on the verge of technological breakthroughs that 
will enable us to live our lives less dependent on oil. Once 
again, the President has said the right thing and then 
delivered a budget that will produce the exact opposite result. 
Mr. Secretary, I find it incredible that your entire budget, a 
budget that it tasked with breaking our so-called addiction to 
oil, is a mere $24.6 billion. That is barely more than what we 
spend in Iraq every 3 months. I can only imagine the 
breakthroughs that your Department could achieve if the 
President actually backed up his rhetoric with real new funding 
designed to make our country truly energy independent. I 
appreciate the tough position you are in as you attempt to 
defend this bait-and-switch but we need to provide substantial 
new funding as I believe this will do more to change our 
foreign policy, protect our environment and strengthen our 
economy than any other action we could possibly take her in 
Washington.
    The Chairman. The time of the gentleman has expired. The 
chair recognizes now our good friend from Pennsylvania, Mr. 
Pitts, for 1 minute. The gentleman has waived. The chair 
recognizes now the distinguished gentleman from Texas, Mr. 
Burgess, for 1 minute.
    Mr. Burgess. Thank you, Mr. Chairman. In the interest of 
time, I will submit for the record and leave time for 
questions.
    The Chairman. Very well. The gentleman waives. The chair 
recognizes now the gentlewoman from California, Ms. Harman, for 
1 minute.

  OPENING STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman. Two observations. 
First on Charlie Norwood, unfailingly courteous, optimistic, a 
ray of sunshine and hope. He is missed in this Congress and on 
this committee.
    Second, on the need for courage as we confront the threat 
of global warming, which may prove an even bigger challenge 
than the threat of terrorism. Mr. Secretary, this budget is far 
too timid and will do far too little. Hopefully this committee 
will not be timid and will show the kind of courage Charlie 
Norwood exemplifies. I yield back.
    The Chairman. Ms. Harman yields back. The chair recognizes 
now the distinguished gentleman from Maine, Mr. Allen.
    Mr. Allen. Mr. Chairman, I will waive my opening.
    The Chairman. The gentleman waives. The chair recognizes 
now the distinguished gentlewoman from Illinois, Ms. 
Schakowsky. The chair recognizes now the distinguished 
gentlewoman from California, Ms. Solis.

 OPENING STATEMENT OF HON. HILDA L. SOLIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you, Mr. Chairman, and good morning, Mr. 
Secretary.
    In the district I represent in California, gas prices have 
increased by 104 percent. In January our temperatures plunged 
during the worse freeze in 9 years, driving up heating costs 
and foodstuffs. Revenue at 71 percent of small businesses in 
California have decreased as a result of increased energy costs 
but the budget before us today fails again to deliver stability 
for these working families, growth for small businesses and a 
health environment for future generations. Only 5 percent of 
the overall Energy Department's budget is dedicated, by the 
way, to clean renewable technology, weatherization programs are 
cut by 41 percent, and assistance programs for low-income 
families are cut by $200 million. The budget fails to address 
disproportionate impact on global warming, especially on low-
income communities and communities of color. Mortality rates 
associated with global warming could increase twelvefold just 
in the Latino community. The rate of infectious diseases will 
climb, exacerbating impacts for the uninsured. The price of 
foodstuffs will increase, impacting the large Latino workforce 
in California. Latinos gathered, as you know, last September to 
report on the National Latino Congresso. I would ask that we 
may consider----
    The Chairman. The time of the gentlewoman has expired. The 
chair recognizes now the distinguished gentleman from 
Washington, Mr. Inslee.

   OPENING STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you, Mr. Secretary, for being here. I 
wanted to explore with you later some schizophrenia in the 
budget and the two items I mention, and one is the clean coal 
research which I support. I think it is good research. We 
should find out if we can sequester CO\2\. But the problem is 
because the President refuses to accept the regulation on 
carbon, we may spend a billion dollars in taxpayer money and no 
one will ever deploy a clean coal plant because why would you 
ever do it when you can put your carbon dioxide into the Bush 
plan for free and unlimited amounts up the stack. That is 
schizophrenia. The second issue is, you have money in for 
alternative fuels but you include coal to liquids which doesn't 
save us anything in any realistic amount in carbon dioxide.
    So you have got two major schizophrenias going on in here 
and I look forward to discussing that with you because if we 
are going to get serious on CO\2\ reductions, we need 
consistent policies that will match the research with the 
deployment. I look forward to that. Thank you.
    The Chairman. The time of the gentleman has expired. The 
chair now the distinguished gentleman from Texas, Mr. Green, 
for 1 minute.
    Mr. Green. Thank you, Mr. Chairman. I would like to reserve 
my time and also just join in all our colleagues in your 
comment about our colleague, Charlie Norwood, in his illness.
    The Chairman. The gentleman waives. The chair recognizes 
now the distinguished gentlewoman from Wisconsin, Ms. Baldwin.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    I was pleased that President Bush in his State of the Union 
address spoke so candidly about his goals for improving 
American's energy policy including increasing production of 
renewable fuels, modernizing fuel economy standards and 
investing in new technologies such as cellulosic ethanol. Our 
President even changed course, acknowledging to the National 
that global climate change must be taken seriously. However, 
his ambitious words fail to come across in the budget that we 
have before us. The budget lacks any proposals for curbing 
emissions. At the same time, the budget proposes a decrease in 
funding for an energy-efficiency and environmentally sound 
power source, wind. With the focus so strong on renewable 
energy sources, I wonder why the administration is proposing 
cuts to its investment in wind power.
    Mr. Secretary, the spotlight is really on us right now. It 
is time for us to lead by example and show that we are 
committed to addressing energy efficiency and global warming. 
The President's words alone are not enough. I only hope that we 
will be able to correct the shortcomings that we have 
highlighted today and address the real problems before it is 
too late. Thank you.
    The Chairman. The time of the distinguished gentlewoman has 
expired. The chair recognizes now the gentleman from Utah, Mr. 
Matheson.

  OPENING STATEMENT OF HON. JIM MATHESON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Matheson. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    Three specific points I want to raise. First, the 
significant budget increase for RRW is concerning. The 
rationale for RRW used to be aging plutonium pits. As we just 
heard in December, the pits are fine for at least 100 years, so 
I have to question DOE's rationale in attempting to move 
forward on new nuclear warheads that we might have to test at 
some point.
    Second, Senator Reed and I have been working on legislation 
calling for interim onsite nuclear waste storage at nuclear 
power plants. Dry cask storage, which wasn't even on the table 
back when Congress enacted the Nuclear Waste Policy Act of 
1982, combined with the Federal Government taking title of the 
nuclear waste, is likely a better option than throwing good 
money after bad with respect to Yucca Mountain.
    And third, I am still very concerned about the Moab uranium 
tailing pile. I see huge budget numbers in the Department's 
budget for programs that don't seem nearly as urgent, so I have 
to question how DOE can say that the budget can provide the 
$500 million it will likely take to clean up 16 million tons of 
radioactive mill tailings sitting on the banks of the Colorado 
River. The alternative would be a 20- to 25-year schedule. That 
is a difficult timeline for people at Utah, Arizona, Nevada and 
California. These are all critical issues and I look forward to 
hearing from you during the question period.
    I yield back.
    The Chairman. The time of the gentleman has expired. The 
chair now recognizes the distinguished gentleman from North 
Carolina, Mr. Butterfield.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for coming forward today and giving us the benefit 
of your testimony.
    I am not so sure that the American people really understand 
our need for energy independence. I know that is not the case 
in my congressional district, and so I want to encourage the 
Department to have a more aggressive campaign to educate the 
American people on the seriousness of this issue.
    I am also concerned, Mr. Secretary, about the Department's 
proposal to cut by 40 percent the funds for weatherization 
programs. I represent a poor district in eastern North Carolina 
and we are vitally concerned about that particularly when we 
are spending $2 billion a week in Iraq. Low-income people in my 
district are suffering from unbearable heating costs and your 
decrease, if it is true, will exacerbate this problem. I hope 
my statistics are wrong, but if not, please take care of our 
citizens who are cold.
    I yield back.
    The Chairman. The time of the gentleman has expired. The 
chair recognizes now the distinguished gentleman from Georgia, 
Mr. Barrow, for 1 minute.
    Mr. Barrow. Thank you, Mr. Chairman. I waive opening 
statement.
    The Chairman. The gentleman waives. The chair recognizes 
now the distinguished gentleman from Indiana, Mr. Hill.

  OPENING STATEMENT OF HON. BARON P. HILL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Hill. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for joining us here today.
    The budget before us today is an ambitious one. I would 
like to concentrate on provisions that are important to my 
constituents in Indiana, specifically the Twenty in Ten 
gasoline initiative that aims to reduce our gasoline usage by 
20 percent in the next 10 years. As you know, Indiana currently 
has the resources to produce fuel and electricity from crops, 
coal and biomass. Our citizens will remain a leader in reducing 
United States' dependency on foreign oil and oil in general by 
continuing to research and develop methods to produce clean 
energy from our homegrown resources. I look forward to hearing 
details of how you propose to accomplish this lofty goal 
through law or regulatory changes and how we can work together 
to ensure its success.
    The Chairman. The time of the gentleman has expired. The 
chair recognizes now the distinguished gentlewoman from 
Illinois, Ms. Schakowsky.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Chairman Dingell, and thank you, 
Secretary, for being here.
    The President's budget for the sixth time in a row to me 
shows that the President favors tax cuts for the wealthy above 
meeting basic human needs like heating and home weatherization 
assistance and seriously combating climate change by reducing 
carbon emissions. In my view, this is a dangerous budget. The 
President's budget cuts LIHEAP, which helps low-income families 
pay their heating and cooling bills, by $1.4 billion and it 
slashes weatherization assistance grants which help low-income 
households make their homes more energy efficient by 40 percent 
below last year. Based on the President's proposal, 40 percent 
fewer families will receive weatherization assistance next 
year. For Chicago, the cost of those cuts will be human lives. 
Already at least one person has died due to the deep freeze 
that gripped Chicago this week. At minus 30 degrees wind chill, 
people die if they don't have adequate heat. The cold snap we 
are currently experiencing has been responsible for at least 13 
deaths already across the country. Each cut, more people at put 
at risk. So Secretary Bodman, I look forward to hearing from 
you and what the administration have to say about those cuts as 
well as the flat funding of energy efficiency, renewable 
energy. Thank you.
    The Chairman. The time of the gentlewoman has expired. The 
chair now the gentleman from Maryland, Mr. Wynn.

 OPENING STATEMENT OF HON. ALBERT R. WYNN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Wynn. Thank you, Mr. Chairman. Welcome, Mr. Secretary.
    Let me begin by echoing the sentiments of my colleagues on 
the subject of weatherization. I too am concerned about the 41 
percent reduction that has been proposed. We have a waiting 
list in Maryland, and this was before the budget was put out so 
that we are very concerned.
    I also want to say that although the administration 
maintained its commitment on hydrogen fuel cells, it did not 
maintain its commitment on the transition programs. We talk 
about energy independence, but if we don't have market 
transition programs that would create markets for these new 
technologies, they don't work.
    Third, I would like to mention the issue of the loan 
guarantees again for new technologies. That program was 
significantly delayed. I hope we will expedite this process so 
that the companies that are trying to provide new technologies 
will be able to benefit from a program that we passed more than 
18 months ago. I thank you and relinquish the balance of my 
time.
    The Chairman. The time of the gentleman has expired. The 
chair recognizes now the distinguished gentleman from New York, 
Mr. Engel.

 OPENING STATEMENT OF HON. ELIOT L. ENGEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Engel. Thank you, Mr. Chairman. Welcome, Mr. Secretary. 
I too was happy to hear the President's words at the State of 
the Union but we heard those words last year and nothing was 
done, so I hope this time we back up the words with action. We 
need action to make our vehicles more fuel-efficient, action to 
help provide our motorists with clean alternative fuels and 
actions to help commercialize plug-in hybrid technology.
    Congressman Kingston and I in a bipartisan fashion have 
introduced H.R. 670, the Drive Act, to achieve these goals. We 
have got about 80 or 90 bipartisan cosponsors. We shouldn't 
wait for the perfect bill. We think this is the perfect bill 
but we should act on this now, and we need the administration 
and you, Mr. Secretary, to help us push it because this is 
something that the American people need. We need to help 
American automakers transform their fleets to run on biofuels. 
We need to act now to transform our fuel infrastructure to 
allow electricity and renewable fuels to power our vehicles and 
we need to make dramatic strides to make us energy-efficient, 
and we need to pass H.R. 670, the Drive Act, and I hope you put 
your influence and the administration's influence behind it, 
and I yield back.
    The Chairman. The time of the gentleman has expired. The 
Chair notes that that concludes the opening statements. Other 
statemetns will be accepted for the record.
    [The prepared statements of Mrs. Cubin and Mr. Burgess 
follow:]

Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    I represent a State where the budget depends largely on our 
Nation's energy policy.
    Wyoming accounts for approximately 40 percent of all coal 
mined in the United States. We are in the top five onshore 
natural gas-producing States, eighth in crude oil production, 
and first in both trona and uranium. Wyoming truly is the 
``energy breadbasket'' of our Nation.
    However, Wyoming also has an unmeasured potential for 
renewable and clean-burning fuels, and I want to compliment the 
Department of Energy on submitting a budget proposal that 
promotes new science and technology, as well as better 
utilization of renewable resources.
    At least one coal-to-liquids facility is already moving 
forward in my State, which will bring to market roughly 13,000 
barrels per day of refined, ultra-low-sulfur diesel fuel. The 
southeastern Wyoming corridor is one of the most favorable 
locations for wind power development in the country. These are 
the types of energy projects we should be incentivizing at both 
the State and Federal levels.
    We live in a time when our national energy policy has a 
direct effect on the safety and prosperity of our Nation. I 
look forward to hearing the Secretary's thoughts on how this 
budget helps achieve those vital goals.

  Prepared Statement of Hon. Michael C. Burgess, a Representative in 
                    Congress from the State of Texas

    Mr. Chairman, thank you for convening this hearing today.
    One of my most important responsibilities as a Member of 
Congress is to ensure that my constituents' tax dollars are 
being spent wisely. It is for that reason that I look forward 
to the ongoing debate about our national funding priorities.
    Secretary Bodman, thank you for appearing before us this 
morning. As we begin the fiscal year 2008 appropriations cycle, 
it will be helpful to hear from you about the President's 
budget request for the Department of Energy.
    I am especially interested to hear your testimony regarding 
the President's Proposed ``Twenty in Ten'' Initiative, as well 
as the oil and natural gas research programs that have been 
zeroed out in the President's proposed Budget.
    Secretary Bodman, thank you again for appearing before us 
this morning. I yield back.

    The Chairman. Mr. Secretary, we recognize you for your 
statement. Mr. Secretary, welcome.

STATEMENT OF HON. SAMUEL W. BODMAN, SECRETARY, U.S. DEPARTMENT 
                           OF ENERGY

    Secretary Bodman. I will try to be brief, Mr. Chairman. Let 
me begin by noting the good relationship that I have enjoyed 
with the chairman and the ranking member over the last couple 
of years and I hope that we can strengthen that because we have 
a lot before us, as I have just listened to the views of so 
many members of this committee. I too would like to take note 
of the absence of Mr. Norwood. He has become a friend of mine 
during my brief tenure here, and I miss him.
    As you heard in the State of the Union address, the 
President announced several new energy initiatives that will 
shape our Department's work over the coming 2 years. The 
President announced a goal of reducing our gasoline usage by 20 
percent over the next 10 years, the so-called Twenty in Ten 
program, first by requiring 35 billion gallons of renewable and 
alternative fuels by the year 2017, nearly five times the 2012 
target, which we should meet as soon as next year, I believe, 
as best I see it, and second, by reforming and modernizing the 
CAFE standards for automobiles and extending the current light 
truck rule which already exists. Together we believe these 
measures will help reduce our dependence on unstable regimes 
and will also check the growth, in fact should reverse the 
increase of carbon emissions from the transportation sector.
    In addition, the President proposed doubling the size of 
the Strategic Petroleum Reserve to further protect our Nation 
from shocks in oil markets. We look forward to working with the 
Congress and with other parts of our administration to 
accomplish these important goals.
    Let me now just take a minute to mention a few of the 
highlights in our $24.3 billion budget request of Congress. To 
maintain our economic prosperity by encouraging scientific 
innovation, the President last year proposed the American 
Competitiveness Initiative. Our budget proposes, as has been 
noted, a $4.4 billion budget or an increase of about $300 
million over the 2007 request to fund basic research in the 
physical sciences and to support science and technology 
education programs in our Office of Science. We are also 
requesting $2.7 billion to accelerate the Advanced Energy 
Initiative, also announced last year. Through this initiative, 
we will continue to develop the most promising clean energy 
technologies including clean coal, biomass, solar and wind 
power, hydrogen research and new technologies in nuclear 
energy. The President and I believe that nuclear power must 
play a significant role in meeting future energy needs in our 
country.
    Our budget requests a total of $400 million for the 
President's global nuclear energy partnership, an international 
effort to expand the availability of safe proliferation-
resistant nuclear power. To make the expansion of nuclear power 
possible, we must of course address the matter of nuclear 
waste. Our budget requests $495 million for the continued 
development of the geologic waste repository at Yucca Mountain, 
Nevada. For the NNSA, the budget proposes $6.5 billion for 
weapons activities which includes funding for our complex 2030 
program to create a smaller, more efficient weapons complex 
that is better able to respond to changing global security 
challenges. Also within the NNSA, we request $1.7 billion for 
our nuclear nonproliferation activities.
    One of the most important responsibilities concerns our 
commitment to public health and safety. Our fiscal year 2008 
budget proposes $5.7 billion to clean up hazardous radioactive 
waste left over from the Manhattan Project and the Cold War. It 
is amazing to me that we are still working on this but we are 
and we will be for some years to come. I am proud to note that 
we have completed cleanup of 81 sites through the end of 2006 
as well as three sites in Ohio, Fernald, Columbus and Ashtabula 
this year. So we are making some progress there.
    Mr. Chairman, there are many other productive and promising 
initiatives underway in our Department. I look forward to 
discussing them with the members of this committee during the 
question-and-answer session. Thank you very much.
    [The prepared statement of Secretary Bodman appears at the 
conclusion of the hearing.]
    The Chairman. You performed a middle-sized miracle and 
something that I hope my colleagues up here including myself 
will learn to do and that is, you have completed your statement 
with time left, a remarkable accomplishment. Mr. Secretary, the 
chair recognizes himself for 5 minutes.
    At a recent press conference, Mr. Secretary, you were 
reported as saying in effect the question of whether man is 
contributing to the planet's warming is no longer up for 
debate. Is that still your view?
    Secretary Bodman. Yes, sir.
    The Chairman. Mr. Secretary, you should know that this 
committee is going to, by direction of the Speaker, spend 
considerable time meeting a deadline of June 1 with regard to 
presenting the Congress with a piece of legislation on global 
warming. So we will be looking forward to your assistance as we 
proceed with an extensive program of hearings to write a bill 
to address this. Mr. Secretary, it is the intention of the 
committee that this bill be fair and that it be fairly and 
properly conceived and that it be, if humanly possible, a bill 
which will both be bipartisan in character and have the support 
of members of both sides and will be able to pass both the 
House and Senate and arrive at the President's desk for 
signature. My question, Mr. Secretary, will you help us in that 
undertaking?
    Secretary Bodman. Of course.
    The Chairman. Now, Mr. Secretary, is it still the 
administration's position that it will oppose any type of 
mandatory cap on carbon emissions?
    Secretary Bodman. Yes, sir.
    The Chairman. Mr. Secretary, the office of Mr. Ward Sproat, 
director of the Office of Civilian Waste Management, testified 
before the committee regarding the Yucca Mountain nuclear test 
repository. He testified that he plans to submit a license 
application to NRC by 2008, and if that succeeds, to open the 
repository in 2017. Are those timetables still valid?
    Secretary Bodman. I believe they are valid, sir. It will be 
a challenge to get it done but I believe they are valid. This 
timetable was constructed with the assumption that we do not 
have outside interference with our moving forward, things like 
lawsuits and----
    The Chairman. I am aware of that, so what you are telling 
me is that we really don't think that date is necessarily a 
valid date?
    Secretary Bodman. Well, it is the only date that I can put 
forth, that we can put forth that deals with matters that we 
can control.
    The Chairman. Now, Mr. Secretary, we asked Mr. Sproat when 
he was before us that he would provide us with an updated 
version of the projected costs for the repository program. This 
he agreed to do, but Mr. Secretary, it has not been done. When 
will we receive that information?
    Secretary Bodman. I looked at the numbers. We still are 
working on it. I would tell you that my own estimate is 
something like $20 billion.
    The Chairman. We would like to have the response to those 
questions as soon as it is comfortable because I would like to 
have that in the record. Now, Mr. Secretary, does the 
administration's budget provide enough funding to keep the 
program on track with Director Sproat's timetable?
    Secretary Bodman. Yes, sir.
    The Chairman. There is enough money there to do this?
    Secretary Bodman. Yes, sir.
    The Chairman. All right. Now, Mr. Secretary, I have long 
advocated a nuclear waste fund being taken off budget. The bill 
which the administration sent up to the Congress last year did 
not include such and it did not, in my view, provide the 
critical element of protecting the $20 billion or so in the 
corpus of this nuclear waste fund from diversion by the budget 
and the Appropriations Committee. If I read this budget 
correctly, of the $770 million that is expected to be collected 
from ratepayers, only $202 million actually be appropriated, 
leaving $568 million to be added to the unprotected balance of 
the fund. Now, does the administration support the taking of 
the corpus off budget?
    Secretary Bodman. Let me say that, as I said before, my own 
estimate is that this is about a $20 billion project. There is 
already $19 billion in the fund. As you pointed out, there is 
some $700 million that will be paid in this year. The income 
from the fund, from the $20 billion, is also going to be 
something like $700 or $800 million. You have a billion-five--
--
    The Chairman. Mr. Secretary, the nub of the question is, 
what is the administration going to do to protect this money 
which doesn't belong to anybody except for the ratepayers and 
the fund for the purpose which the fund was created.
    Secretary Bodman. We are certainly happy to work with 
Congress, sir, on that question.
    The Chairman. You have got a fine lawsuit going on in this 
regard.
    Secretary Bodman. Yes, sir.
    The Chairman. I would like to have you submit to us an 
answer to the question of what the administration proposes to 
do about this matter because this has been a source of 
considerable irritation to all and sundry. My time has expired. 
And we will, I note, Mr. Secretary, be submitting to you a list 
of questions which members of the committee and the occupant of 
the chair would like to have answered in view of the shortness 
of the time.
    The chair now recognizes my distinguished friend and 
colleague from Texas, Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. Let me say that at the 
hearing with the Secretary of Commerce, you commented that you 
seemed a bit rusty. My observation is, you are not at all rusty 
today, so your learning curve is accelerating. You are back in 
your old form, which is a good thing for the committee.
    Mr. Secretary, the first thing I want to ask you is the 
status of the project for clean coal technology, which we call 
FutureGen. I believe the President's budget requests $108 
million for that project. Could you comment on that?
    Secretary Bodman. Yes, sir. The goal is to pick one of the 
four contending communities. There are two in Texas, two in 
Illinois, that are competing for this. They were down-selected 
from a group of I think 13 different communities. I would add, 
if I may interject, that it was a rare privilege for the 
Secretary of Energy to have actually calls coming from State 
leaders requesting that this facility be built in their State, 
which is not usually the case, and so we will be selecting one 
of the four communities this summer. This is a result of the 
environmental study, and we will be proceeding later on this 
year with the preliminary design and construction.
    Mr. Barton. My next question is also on the coal area. 
Section 3104 of the Energy Policy Act authorized $300 million 
for fiscal year 2007, $100 million for 2008 and $40 million for 
2009 to work with private industry to go out and pick existing 
coal-fired power plants that were not using the latest 
technology and retrofit those plants to bring their emissions 
up to current Clean Air Act standards. I can't see anywhere in 
the budget that the Department has funded that program. If you 
haven't, why not, and if you have, where is it?
    Secretary Bodman. It is not there. You are reading it 
correct. The initial interest, that is to say last year, was 
that we had felt that there were other programs in place that 
were dealing with that particular question and that particular 
issue so when we stacked it up versus other parts of the Energy 
Policy Act, it did not have the same priority as those that 
were judged to be appropriate. The reason that this year the 
program has been discontinued in its entirety is that there are 
now regulations in place that force the utilities to deal with 
matters related to mercury, to sulfur oxides and to nitrogen 
oxides.
    Mr. Barton. Well, that was put in the Energy Policy Act at 
the personal request of the then-chairman of the committee.
    Secretary Bodman. Yes, sir.
    Mr. Barton. So as ranking member, it still is a high 
priority and we on the minority side catch some flack in the 
appropriation process by members of the majority that say the 
administration talks a good game but it doesn't deliver and 
specifically in some of the coal areas, and this is an example 
of that. I would strongly urge and request that you go back and 
take a look at that particular program because the whole point 
was to clean up existing coal-fired plants so that you keep the 
jobs there, you keep the resource base, which is American-
manufactured coal, and we also meet the latest environmental 
standards. It is a win, win, win. It is not that much money and 
the private sector has to participate, so I understand the 
legislative initiative that you talked about or the 
administration initiative but I would hope that we could still 
see some money put into that.
    Secretary Bodman. I will certainly comply with your 
request, sir. I will go back and look at it.
    Mr. Barton. And then last but not least, a perennial 
problem at Los Alamos, which you are aware of as I am, in our 
hearing in the Oversight Subcommittee last week on Los Alamos, 
it was pointed out that there are a huge number of vacant 
positions in the field office, so these are direct Department 
of Energy employees, and if my memory is right, there are over 
20 vacancies. What steps, if any, are being planned to fill 
those slots so that we can have good administrative oversight 
of that program?
    Secretary Bodman. You are correct that there are a 
significant number of vacancies in that office. As a result of 
the recent problems at Los Alamos, I made the difficult 
decision--you and I have talked about this--of relieving the 
administrator of his responsibilities. The acting administrator 
of NNSA has changed up the management, the leadership of the 
site office, the one to which you referred. The new manager 
arrived there on Monday of this week. Monday was his first day. 
He will be addressing questions of exactly the sort that you 
asked promptly. There are two individuals that have been 
identified from our independent oversight office, that is to 
say from the HHS organization here in Washington, and two of 
those who are very knowledgeable on security matters will at 
least on an interim basis fill the gap and be working for the 
new manager in the site office to help strengthen that 
activity. So there are a number of things that are ongoing.
    Mr. Barton. Mr. Chairman, could I ask one very brief 
question?
    The Chairman. Without objection, so ordered.
    Mr. Barton. Mr. Secretary, Mr. Dingell and myself and 
several of the members of the committee have introduced 
legislation to take the oversight authority over Los Alamos and 
other weapons programs away from the NNSA and give it directly 
back to the Department of Energy. Have you taken a position on 
that legislation?
    Secretary Bodman. Yes. I was in testimony before the Armed 
Services Committee last week. I said that I had appointed a 
committee a year ago roughly to look at the question of the 
organization of NNSA, how it relates to the Department, and 
they came up with a number of suggestions that would improve in 
their judgment the management structure of the NNSA. I agreed 
with them their suggestions would improve the structure. But I 
have to tell you, none of those changes really would have 
prevented the problem that we had.
    Mr. Barton. My question is, do you support the legislation 
that Mr. Dingell and I have introduced?
    Secretary Bodman. I have not asked for any legislation.
    Mr. Barton. That is a no. Can we make it a maybe or a yes 
if we work with you?
    Secretary Bodman. Sure. I mean, I would be happy to work 
with you but I just would tell you that the challenges before 
us relate to the culture that exists in Los Alamos, in my 
judgment, and that is where I am putting my time and effort and 
my focus, but of course I am happy to work with you and the 
chairman on that.
    The Chairman. The time of the gentleman has expired. The 
chair observes that his questions are very important. We have 
had a splendid succession of scandals down there at Los Alamos 
and somebody has to clean it up and there is no sign that the 
current system is working and we have got to get it in the 
hands of somebody like you who I think will try to do something 
about it.
    Secretary Bodman. I am attempting to do something as we 
speak, sir.
    The Chairman. The time of the gentleman has expired. The 
distinguished gentleman from Virginia, Mr. Boucher, is 
recognized for 5 minutes.
    Mr. Boucher. Thank you very much, Mr. Chairman, and Mr. 
Secretary, thank you for your participation here this morning. 
I want to focus for a few moments on the very important 
question of carbon sequestration and state of the art and what 
we are seeking to learn and when we are going to learn it. DOE 
now has seven regional partnerships that are focused on carbon 
sequestration, and your budget request for fiscal year 2008 
asks for $79 million in order to begin four large-scale field 
tests. I am told these field tests would be of about 1 million 
tons per year per project of sequestered carbon. Could you 
describe the goals of your partnership and also what you hope 
to learn through these field tests, and can you give us a sense 
of when you think carbon sequestration technology could be 
sufficiently reliable for deployment and for something we can 
actually begin to rely upon as we structure legislation that in 
fact might require the capture and sequestration of carbon?
    Secretary Bodman. First, I think there are seven 
partnerships.
    Mr. Boucher. You have seven, and you are proposing four 
large-scale field tests.
    Secretary Bodman. Well, I think there are going to be seven 
large-scale field tests. That is what the money is intended to 
do and it is about $10 million per year per partnership, and 
the goal is to determine what kind of geological formations are 
receptive to the carbon dioxide. Once you put it down there, 
does it stay there, in its simplest form, so we are going to 
have to do enough monitoring and work in order to do a material 
balance and measure what is there. Your G2 is quite good, sir, 
in terms of the size and scale and scope. We have been working 
on this for the past 3 or 4 years, first doing paper studies. 
We are now embarking on programs that will put this effort into 
real practice to deal with the physics of it, if you will, and 
I would think we would start to have a sense of this over the 
next 4 or 5 years. I mean, it is going to take a period of time 
in order to be sure that once you put the carbon dioxide down 
there, that it stays there, that it accomplishes that which you 
had anticipated when you started.
    In addition to this, we also have the so-called FutureGen 
project which also involves sequestration and seeks to convert 
most of the energy that is in the coal into a stream of 
hydrogen and then simultaneously sequestering the carbon 
dioxide. So we will also learn from that. That is supposed to 
start up about 5 years from now. So I think 5 years is sort of 
my sense of it.
    Mr. Boucher. And at the end of 5 years, we should have some 
sense of the reliability of sequestration?
    Secretary Bodman. Yes, sir, I believe so.
    Mr. Boucher. OK. Let me focus briefly on the loan guarantee 
program for alternative transportation fuels. There is a little 
bit of frustration that loan guarantees have not been issued to 
date. This program is authorized in EPACT 2005. Some of the 
companies that want to apply have expressed an interest in 
self-funding the Government's risk in issuing the loan 
guarantee which would be a way in the absence of appropriations 
that would fund that risk to get a loan guarantee issued, and I 
am told that self funding is a rather common practice with 
regard to loan guarantees in other program areas historically. 
I know that you have asked for language that would be in 
appropriations bill that would authorize the self-funding for 
this. Assuming that you have that language provided, how long 
do you think it will be before you can put out a request for 
proposals, a solicitation for projects and actually begin to 
issue the loan guarantees?
    Secretary Bodman. Let me say for the record that we have 
been attempting to implement the Energy Policy Act of 2005, the 
title that contains the provision of the loan guarantees. That 
has been of great interest to a variety of Members of Congress 
as well as members of my Department. During fiscal year 2006, 
about a year ago, we asked for a reprogramming of $1 million in 
order to get sufficient funding so that we can start the 
office, we could hire some people and get it going. That 
request was denied by the Appropriations Committee of this 
House, and it was a bipartisan denial, so I want to point that 
out. It was a matter that is sort of frankly still--I then was 
before the Senate yesterday. I know it is a matter of some 
concern here. I was criticized yesterday. I expected to be 
criticized more today for my failure in this regard.
    Mr. Boucher. Well, please understand, I am not criticizing, 
I am just asking for information, but let us assume that you 
get this----how soon could you actually begin the solicitation 
process?
    Ms. DeGette [presiding]. The gentleman's time has expired.
    Secretary Bodman. Well, first, as I understand it, the 
rule--we will be required to issue and get approved a rule that 
under which we operate. We will only be permitted to move 
forward. We had attempted and had requested that we would deal 
under guidelines which we would have been started already had 
we been funded and permitted to go. It is going to take 6 
months, I think at least, to get the rule done. That is how 
long it takes, and if we were to successfully complete the 
solicitation and program a year from now, we would be doing 
well in my judgment.
    Mr. Boucher. Thank you, Mr. Secretary.
    Ms. DeGette. The chair recognizes the gentleman from 
Michigan, Mr. Upton, for 5 minutes.
    Mr. Upton. Thank you, Madam Chair, and again, Mr. 
Secretary, we welcome your presence here and in the future as 
well. As you know, I have got two nuclear plants, facilities in 
my district on the shore of Lake Michigan. Both of them have 
exceeded their capacity in wet storage for their spent nuclear 
rods, and I have been out to Yucca Mountain a couple different 
times. It has been a number of years since I was there. I think 
there was a genuine concern as we looked through the budget 
request, as I looked through the nuclear trust fund as I 
indicated in my opening statement, that we will actually expand 
the nuclear waste trust fund by about $2 billion from the 
actual 2006 until what is estimated to be in 2008, and of 
course, that is paid for by us, the ratepayers, as we use that. 
And as much as we want this facility to open, I can remember 
when they first started talking about having it open I think in 
2010 and then 2012 and 2015 and now, as you indicated in your 
testimony, about 2017. Yet it seems that the funding for the 
project is about flat from 2006 to what the request is for 
2007. I don't know if you have been there recently. I remember 
when you were first sworn in, you talked about this was a 
project that you were going to really grapple with and make 
sure that the right people were there and making progress and I 
am just wondering what you might say about what has happened in 
your tenure since you have been Secretary.
    Secretary Bodman. Well, I have been there and I have 
visited the facility. I have to tell you, I was quite impressed 
and encouraged by the state of the geology and the efforts that 
have gone into characterizing the geology of that site. Ward 
Sproat has been on the job, again I have lost track of time, 
but close to a year, I guess. He is coming up on a year. And he 
is the Assistant Secretary for Radioactive Waste Management and 
he has done a very good job. He tells me when I talk to him, as 
recently as yesterday, that the amount of money in the budget 
is sufficient to move forward and get this license approved, or 
not approved but get it finalized and submitted within a period 
of 18 months, and so that is what our intentions our.
    Mr. Upton. Well, that is great to hear, and I know that 
this committee and the subcommittee will follow through to make 
sure that we try to stick with those deadlines. I don't know if 
you saw yesterday's Wall Street Journal, ``Can Bush Reach Our 
Goal With Proposed Spending Plan''. They in essence--and I know 
you were on the House floor for the President's State of the 
Union address.
    Secretary Bodman. Yes, sir.
    Mr. Upton. You saw the fervor and the passion in support of 
alternative fuels when the President mentioned that in his 
speech. This story goes on to say that analysts suggest that 
increasing production of corn-based ethanol would result only 
in enough fuel to meet half of the President's alternative fuel 
usage goal for 2017. It talks about a number of budget numbers. 
It does go up but I would say that probably not e significant 
amount to try and make sure that at some point we can follow 
through, as your spokesman said, that we need to be more 
reliant on farmers of the Midwest than on oil sheiks of the 
Mideast, and I thought that was a great statement. But where is 
the beef to make sure that we can get this done?
    Secretary Bodman. First of all, the statement of half 
refers to about 15, let us say 17 billion gallons that could 
come from corn and the production of virtually all ethanol that 
is used today in this country comes from corn, and----
    Mr. Upton. Well, we can do it from sugar, right? Brazil has 
proved that they can do it from sugarcane.
    Secretary Bodman. Sugar is the best alternative. We have 
very expensive sugar in our country for a variety of reasons, 
sir. Going back to the corn, the goal is to have corn-based 
ethanol that could produce about 15 billion gallons, 15, 16, 17 
billion gallons. That is the half. In order to get to the 
President's goal, we need cellulosic base which is the 
production of ethanol from materials that are ways of much 
cheaper feedstocks--switchgrass, sawdust, woodchips, that sort 
of thing. And we have a program to do that and we are working 
on it. The President has asked in this budget for $180 million 
to increase the commitment to that endeavor at our renewable 
energy laboratory out in Colorado and I am encouraged by that. 
I was apprehensive when I heard the President say the words 
that he said because we are the ones that have t deliver on 
that. I would tell you that I felt better the next day after I 
visited the DuPont Company with the President. The Energy 
Department has a relationship with the DuPont Company for the 
last 3 or 4 years developing a so-called biorefinery. They told 
me during the visit that they felt they would have an 
industrially attractive process in the next couple of years, so 
I felt good about that. And if could just say one additional 
thing. I am sorry for this. I started out life as a venture 
capitalist in Boston and this is the first time in the 43 years 
that I have been in and around the venture capital business 
that we have seen the private venture capital community putting 
big money, billions of dollars, every year into renewable 
energy including cellulosic ethanol and that also increases my 
optimism.
    Mr. Upton. Thank you.
    Ms. DeGette. The chair recognizes the gentleman from 
Massachusetts, Mr. Markey, for 5 minutes.
    Mr. Markey. Welcome, fellow Bostonian.
    Secretary Bodman. Thank you, sir.
    Mr. Markey. Mr. Secretary, does President Bush support a 
mandatory cap and trade system to control emissions of carbon 
dioxide and other greenhouse gases?
    Secretary Bodman. No, sir.
    Mr. Markey. No. Does the President believe that climate 
change is a serious problem given the U.N. scientific panel's 
conclusions that were released last week?
    Secretary Bodman. Yes, sir.
    Mr. Markey. Is the President aware that the United States 
contributes 25 percent of the world's total of greenhouse 
gases, far more than any other nation in the world?
    Secretary Bodman. Yes, sir.
    Mr. Markey. Is there any reason to believe that the 
President is going to take the world leadership on this issue 
if he will not support mandatory controls on the emissions of 
greenhouses gases into our environment, not just our, meaning 
the United States, but the global environment?
    Secretary Bodman. Yes, sir.
    Mr. Markey. And what evidence would we have to indicate 
that?
    Secretary Bodman. There are a number of things that are in 
this budget that is before you that relate to this. One is the 
requirement that 15 percent of the gasoline that is now, or is 
anticipated to be used 10 years from now, be a renewable or 
alternative energy. Second, we have had a program in place for 
some time to reduce the intensity of emissions of greenhouse 
gases by 18 percent by the year 2012. We are ahead of target in 
order to accomplish that. We are ahead of virtually every 
country that has been a signatory to the Kyoto Agreement, and 
so the mere commitment to a regulatory regime does not 
accomplish that which you wish to accomplish.
    Mr. Markey. Let me just stop you there, Secretary. As you 
know, that 15 percent number includes coal to liquid which 
actually results in more CO\2\, so I dispute the numbers that 
the administration uses. Let me go to some specific big items 
here. Would President Bush support mandating a fleet-wide 
improvement in car and SUV efficiency in the law so that we can 
be certain that the President's promise is actually carried 
out?
    Secretary Bodman. We are happy to work with you on that 
subject.
    Mr. Markey. So a mandate is possible? The Bush 
administration----
    Secretary Bodman. We are happy to work with you on that 
subject and work with Congress on matters related to that which 
the President proposed was to give the Department of 
Transportation--as you know, that is where the legal authority 
resides in order to set CAFE standards which is I think the 
question that you are asking, and we would have requested that 
the same pattern be put in place for automobiles that has 
existed for SUVs----
    Mr. Markey. May I say, Mr. Secretary, the big problem we 
are going to have is that the people of the United States don't 
trust the Department of Transportation anymore, that we need to 
have a mandate that they actually apply. We can determine what 
the level is. I think we can negotiate on that. Four percent 
per year, 3 percent, 5 percent, we can discuss that. But we 
can't discuss whether or not it is optional. That is where the 
Department of Transportation has let down the country.
    Secretary Bodman. That is my view, just so that it is 
clear.
    Mr. Markey. On appliance efficiency standards, the Bush 
administration has had an abysmal record in putting new 
regulations on the folks to guarantee that appliances are more 
efficient so we don't have to build as many coal and natural 
gas plants to generate the electricity for them. Would the 
President support allowing the States to step in and set 
appliance standards if the Department of Energy is more than 3 
years late in issuing a new, revised standard?
    Secretary Bodman. I read during the days of my confirmation 
hearings an article on the abysmal record that has existed, not 
just in the Bush administration but I also say, sir, the 
Clinton administration before it.
    Mr. Markey. Would you support after 3 years letting the 
States do it----
    Secretary Bodman. I would be happy to talk to you about any 
subject related to this matter. I will tell you that we have an 
agreement with the court that we have been sued as you are I am 
sure aware and we have also had review that was required by----
    Mr. Markey. You should not be sued, Mr. Secretary for doing 
your job.
    Secretary Bodman. We have been sued. It is not a matter of 
being sued or not a matter of whether we should be. We have 
been. We have an agreement with the court. We have an agreement 
I believe with this Congress to get back on track by the year 
2011 and we are fully focused on doing that.
    Ms. DeGette. The gentleman's time has expired. The chair 
recognizes the gentle lady from Wyoming, Mrs. Cubin, for 6 
minutes.
    Mrs. Cubin. Thank you, Madam Chairman, and welcome, Mr. 
Secretary. Thank you for being here today. I wanted to follow 
up on the loan guarantee questions that Representative Boucher 
was asking and make sure that the information that I have or at 
least the understanding that I have is correct. All right. So 
the Energy Policy Act authorized $2 billion in loan guarantees 
and there has already been solicitation on those $2 billion but 
no awards have been made. Is that the correct status of that?
    Secretary Bodman. No, ma'am. I mean, I would be happy to 
give you the facts if you would like the facts.
    Mrs. Cubin. I would.
    Secretary Bodman. The Energy Policy Act did not stipulate 
any particular amount. That was an agreement between this 
Department and OMB related to the 2007 budget submittal and 
that is what we put into the 2007 budget submittal. That is 
where the $2 billion limit came from. The second part of what 
you said related to what, ma'am? My brain has gone dead.
    Mrs. Cubin. That there has already been solicitation on 
that $2 billion.
    Secretary Bodman. Oh. There was not solicitation. It was a 
pre-solicitation. It was an expression of interest because we 
knew full well that we didn't have the people in place because 
we were turned down on the reprogramming, that we didn't have 
the people to evaluate it. So we had expressions of interest 
from over 100 companies that totaled some tens of billions of 
dollars of requests that were made available.
    Mrs. Cubin. OK. Then in the CR for fiscal year 2007, $4 
billion was authorized and----
    Secretary Bodman. That is apparently so.
    Mrs. Cubin. OK. And then the DOE request for fiscal year 
2008 is $9 billion.
    Secretary Bodman. That is correct.
    Mrs. Cubin. OK. So now, I am talking about the rulemaking 
that you were discussing.
    Secretary Bodman. Yes.
    Mrs. Cubin. It is my belief that there needs to be a 
rulemaking before any solicitation can be made or before the 
process can go forward for the $4 billion in the CR and for the 
$9 billion request, but there doesn't necessarily have to be a 
rulemaking before the $2 billion can be awarded. Do you agree 
with that?
    Secretary Bodman. No, that is contrary to what I have been 
told by our general counsel but I will be happy to review that 
with him.
    Mrs. Cubin. Thank you. That is my understanding, but we 
will just wait for the review.
    Secretary Bodman. My colleague just told me that at least 
our understanding is that I was correct, that even with the $2 
billion, according to the 2007 CR language, that we would have 
to have a rulemaking.
    Mrs. Cubin. However, that 2007 CR is subsequent to the $2 
billion so it seems to me there is room there where maybe it 
wouldn't be, but we will follow through on that.
    Secretary Bodman. Thank you.
    Mrs. Cubin. Another understanding that I had is the 
regulation requirement in the CR applies only to the new $4 
billion solicitation authority, not the existing $2 billion, so 
we will work together on that.
    Secretary Bodman. We will be happy to work with you, ma'am, 
on that.
    Mrs. Cubin. And one issue that I heard a great deal of 
concern about is the administrative change that the DOE has 
made regarding the interest range charged to the PMAs on the 
Federal power investment. I know you would agree with me that 
PMAs are not Government corporations nor Government entities. 
Is that right?
    Secretary Bodman. I am an engineer, not a lawyer, so I 
don't know the answer to that question.
    Mrs. Cubin. Well, trust me on this one. I know I am right 
on that.
    Secretary Bodman. I accept your answer.
    Mrs. Cubin. Yes, the PMAs are not Government entities and 
so I wonder if you can explain to me the justification in 
revising your historic long-term yield rates to the agency 
rates that are charged to Government corporations. In other 
words, the rates to the PMAs haven't been tied to the 
Government corporation rates, and this wasn't done by Congress, 
it was done by an agency.
    Secretary Bodman. The justification is the one that you 
have given, namely that there is sufficient privilege that goes 
with operating a PMA that is in effect a monopoly in a given 
region or has very strong market presence in a given region, 
and therefore there is either the formal or informal financing 
that the rates for financing are similar to Government-owned 
corporations or Government-sponsored corporations, GSCs, and 
therefore having interest rates that are similar to other 
Government types of corporations makes sense, and it is 
strictly that.
    Mrs. Cubin. Just one statement. I don't think that is 
historically the way the interest rates have been dealt with on 
the PMAs.
    Secretary Bodman. I am sure that is correct.
    Mrs. Cubin. And so there is a lot of complaints about that 
and maybe we can discuss that too. Thank you, Madam Chair.
    Secretary Bodman. I would be happy to.
    Ms. DeGette. Thank you. The chair recognizes now the 
gentleman from Michigan, Mr. Stupak, for 5 minutes.
    Mr. Stupak. I thank the chairwoman. Mr. Secretary, over the 
last 7 years, the Subcommittee on Oversight and Investigation 
has held a dozen hearings about security concerns at Los 
Alamos. You have a number of ongoing reviews related to DOE and 
the security at Los Alamos which are due at the end of 
February. I would like your commitment to come before the 
subcommittee in early March to discuss those reports. Can I 
have your commitment that you will appear in early March before 
the O & I subcommittee to discuss these reports?
    Secretary Bodman. I don't want to commit on the terms of a 
schedule. I will be happy to provide you with the information 
and----
    Mr. Stupak. Well, we were already told that you would 
appear. That is why I am just trying to get this nailed down.
    Secretary Bodman. The fact that you were told that I would 
appear is fine. If my colleagues said that I would appear, then 
I will appear, but what I don't want to do is to appear at a 
time that where I have not had sufficient opportunity to make a 
judgment on what is in those reports and I don't know what my 
own schedule is going to be late in February, early in March 
and when I will have the opportunity to do that and so I----
    Mr. Stupak. All right. Well, when you are getting prepared, 
would you please be prepared to discuss how the Department 
plans to improve the process of granting high-level security 
clearance at labs, if you would, please, sir?
    Secretary Bodman. That is certainly one of the questions 
that is on the plate, yes, sir.
    Mr. Stupak. Thank you. Now, Mr. Secretary, on January 23, 
same day of the State of the Union speech, you announced and 
the President also announced in the State of the Union that he 
would double the size of the Strategic Petroleum Reserve by 
2027. You announced that the U.S. would start buying 100,000 
barrels of crude oil a day starting this spring to accomplish 
this goal. The same day the price of a barrel of crude oil for 
March rose $2.46 on the New York Mercantile Exchange. This was 
the largest 1-day increase in 16 months. Should we expect for 
the next 20 years that crude oil prices will be t$2.50 a barrel 
more than it normally would be because the administration is 
expanding the SPR, and is the Federal Government achieving its 
goal of reducing gas prices if the Federal Government is 
actually driving the prices higher?
    Secretary Bodman. No, and then yes.
    Mr. Markey. OK. Well, should your announcement that the 
Federal Government will purchase 100,000 barrels of crude oil a 
day be enough to cause such an increase?
    Secretary Bodman. No.
    Mr. Markey. OK. Well, so far we got no, yes, no. Let me ask 
you this. Has the Department of Energy done any research on the 
effect that these market swings have on the price of crude oil, 
gasoline and natural price?
    Secretary Bodman. Yes.
    Mr. Markey. OK. I got a no, yes, no, yes. We are still 
going.
    Secretary Bodman. Could I amplify that?
    Mr. Markey. Sure.
    Secretary Bodman. We announced that we would be working 
with initially 50,000 barrels a day of acquisition. This 
country uses, as has been suggested, 20 million barrels a day. 
The Energy Information Agency within the Department of Energy 
studied this matter because I was asked about it a year ago 
when I was in here.
    Mr. Markey. Right. I asked you those questions. My next 
question----
    Secretary Bodman. The effect of this on the price of oil is 
trivial.
    Mr. Markey. Trivial?
    Secretary Bodman. Trivial, because the day after I 
announced, the price backed off a dollar and a half. You have 
markets that are in the hands of human beings. Human beings are 
essentially emotional souls and so people bought on the grounds 
that there was a story apparently going on that indicated that 
this would drive up the price of oil. This is a 20-year program 
if we are successful in accomplishing it, and we will be 
starting the acquisition----
    Mr. Markey. I understand I have got a minute left. Let me 
go. If it is $2.46 and you said the next day it dropped $1.50, 
it makes my point that there are these wild swings in the 
marketplace.
    Secretary Bodman. There are substantial swings in the 
marketplace.
    Mr. Markey. And I asked you about it last time, so I take 
it based on your answer you would agree with the legislation I 
reintroduced, the Pump Act, to prevent unfair manipulation of 
prices, H.R. 594, to prevent these wild swings in the market 
because the experts tell us if we would pass the Pump Act, we 
could lower the cost of the price of crude oil by $20 a barrel 
by having the Commodity Futures Trading Commission oversee 
these trades. So therefore I take it from your answer, you 
agree with the purpose and intent behind the Pump Act?
    Secretary Bodman. Sir, I don't agree with the Act from what 
I know of it.
    Mr. Markey. Why would you disagree with it?
    Secretary Bodman. I haven't studied the Act.
    Mr. Markey. Does the Department plan on taking a position 
on the Pump Act? It didn't last year. Will you this year?
    Secretary Bodman. I don't know, but I would be happy to 
study it.
    Mr. Markey. Would you and get back with us, especially 
since you have indicated in your answer there are these wild 
swings in the market----
    Secretary Bodman. There are substantial swings in the 
market. The reason there are substantial swings in the market 
is that the suppliers are having a terrible time keeping up 
with the demand and therefore the price is set in the 
marketplace and it is like a share of stock.
    Mr. Markey. But I don't think that demand would drop a buck 
fifty in one day or go up $2.46 the next day based on a 
pronouncement from the Secretary of Energy.
    Secretary Bodman. Of course it didn't.
    Mr. Markey. It shouldn't, but it did.
    Secretary Bodman. Of course it shouldn't and it did but it 
doesn't mean that the system is broken.
    Mr. Markey. What it means is speculation based on fear 
leads to greed and therefore----
    Secretary Bodman. I guess there are varying views on that 
subject, sir.
    Mr. Markey. We look forward to your response to the Pump 
Act. Thank you, and I thank the gentlewoman.
    Ms. DeGette. The chair now recognizes Mr. Shimkus of 
Illinois for 6 minutes.
    Mr. Shimkus. Thank you, Madam Chairman. Mr. Secretary, 
thanks for being here. A couple things. I just want to just for 
clarification, in the discussion with Joe Barton--of course, he 
has great interest in FutureGen and so do I. Your response to 
him was, we will make the decision on location. Didn't you 
really mean the alliance will make the decision?
    Secretary Bodman. Yes.
    Mr. Shimkus. And that is important.
    Secretary Bodman. That is right. I think that is right, 
yes.
    Mr. Shimkus. Because we are going to be highly competitive 
in this field. We think science-- and when you have all these 
different partners in the FutureGen project, they are going to 
look at all these variables and I would say that is kind of an 
arm's length transaction from the political environment that--
--
    Secretary Bodman. I think your criticism is valid.
    Mr. Shimkus. No, it is just clarification.
    Secretary Bodman. Well, no, I think it is a correction.
    Mr. Shimkus. And I think some of my colleagues will want to 
get more knowledgeable because the alliance aspect of this 
project is I think very important. The issue too, and I gave 
you kind of a heads-up, the coal-to-liquid debate. When the 
President made the State of the Union, he talked about the 
alternative fuels and had the increase in alternatives, he to 
my disappointment didn't mention coal-to-liquid but we were 
informed that the word ``alternative'' meant also the option of 
coal-to-liquid. Is that your understanding as to the 
alternative debate?
    Secretary Bodman. That is my understanding.
    Mr. Shimkus. That is great. Rick Boucher and I worked last 
year and dropped a bill and we will do so pretty soon again and 
we would just like for your input and advice and counsel on 
what we are now terming price collar based on a loan 
application where the industry puts in and above a certain 
ceiling price and they can recovery from the treasury based 
upon input if it goes below a floor. We think it is going to 
score well, in fact, we are hoping a budget neutral score 
because there is going to be money in early over a certain 
ceiling price, and we would ask for your help and assistance 
and due diligence on that. We are very, very excited about it 
and we are seeing great fluctuations right now in the market 
and of course based upon your business background, the higher 
the risk, the higher the fluctuation, the cost of capital goes 
higher and makes it more it more difficult to do, and this 
eases that because we want to get that first plant on the 
ground and of course you know that the first plant will make it 
opportunistic for other plants to be developed. That also 
addresses our concerns on carbon dioxide issues but that is the 
whole sequestration issue that FutureGen is premised on and all 
these other research projects----
    Secretary Bodman. And the seven partnerships that exist 
throughout the country.
    Mr. Shimkus. And I encourage that. We know we can 
geologically store natural gas. We have done it for decades now 
in parts of the country. We don't think carbon dioxide is going 
to be a problem but I know we have to jump through the hoops. I 
want to now just briefly turn to the renewable aspect of E-85 
and I am very pleased with where we are at. I applaud the 
administration. I am on my third flex-fuel vehicle now. It is a 
Jeep Commander. I have got 20 retail locations in my--I mention 
this all the time, and on average, 20 cents cheaper a gallon. 
So in parts of the country it is there and it is an opportunity 
for choice. There is a problem on infrastructure that you are 
aware of and this--Denny Hastert is recovering and he asked me 
to also address this concern. What are you doing to ensure that 
the infrastructure is in place to provide to meet the demand 
for E-85, and it is really the certification issue and United 
Laboratories aspect and we have pumps and facilities that 
aren't being certified, they can't be used, and can you address 
that on the infrastructure side?
    Secretary Bodman. Yes, there are two questions at least on 
the infrastructure. One is getting sufficient flex-fuel 
vehicles manufactured, and that is something that the President 
talked with the CEOs of at least the American manufacturers.
    Mr. Shimkus. Well, I have had a Ford Taurus, I have had a 
Ford Explorer and now I have a Jeep Commander. They are out 
there for the public to buy and many people don't even know 
they have them.
    Secretary Bodman. I understand that, and we are attempting 
to get to be better known and to have the companies take a role 
in that regard. The second part are the pumps and we are 
working directly with the, I think it is Underwriters 
Laboratory to certify the type of pump that needs to be 
installed so that we can get the kind of protection that the 
insurance companies demand and so I am optimistic that that 
will get done this year.
    Mr. Shimkus. And I hope as we move on the global warming 
debate, of course my friend Mr. Markey already raised some 
points, but he is also the number one opponent to nuclear 
power, and the issue is, if global warming and the carbon 
debate is critical to meet our electricity generation demand 
and needs, the nuclear portfolio has to stay strong and it has 
to expand.
    Secretary Bodman. I agree with that very strongly.
    Mr. Shimkus. And so we just want to help make that case, 
especially from the emissions side, and with that, I appreciate 
your time. Thank you, Madam Chairman. I yield back.
    Ms. DeGette. Thank you. I now yield 6 minutes to the 
gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Madam Chairman. Welcome, Mr. 
Secretary.
    Secretary Bodman. Nice to see you, Mr. Green.
    Mr. Green. Good to see you. I know we ran into each other a 
couple weeks ago coming back from Houston. Mr. Secretary, what 
can you update--I know Mrs. Cubin actually asked an earlier 
question but I would like an update on the energy loan 
guarantee program that was funded in the CR that the House 
passed. Assuming the CR signed by the President, does the 
Department of Energy have a time frame for some of the 
decisions to be made? And also, obviously from our area, I have 
mountains of petroleum coke sitting there that we would like to 
see some of those things, the loan guarantees the same as we 
would do for goal, and is there a time frame we can look for 
for a decision?
    Secretary Bodman. Well, as I mentioned before, that my 
understanding is that we will require a rule to be promulgated. 
Six months would be record time. We already are working on the 
rule, anticipating that we get the CR that we think we are 
going to get although I never want to count-- as I have learned 
in dealing with Congress, I never count my chickens until they 
are there. And so if we were to get that rule done in 6 months, 
if we were to have grants made a year from now, we would be 
doing well.
    Mr. Green. Well, I know we will be visiting for our 
committee on a bipartisan basis. We have an interest because 
that is again some alternatives we could utilize. A few of the 
potential technologies such as FutureGen, zero emission coal-
powered plants, or the widespread adoption of biofuels has the 
capability to change the game in terms of CO\2\ emissions. If 
we are facing a high probability of increasing global warming 
and a major regulatory regime, it could be far-ranging 
restrictions over many decades. Should we be engaging in more 
crash-course projects to make sure we get results as fast? It 
sure would be better if we could solve our global warming with 
technology instead of regulation, especially since regulation 
won't be global whereas the problem is global. Could you just 
address that?
    Secretary Bodman. Well, I agree with you. We are doing 
everything we know how to do in order to accomplish an 
improvement in the fuel mix that we have available to us, and 
we are happy to get advice and counsel from members of this 
committee or others if there are other things we ought to be 
doing.
    Mr. Green. I think all of us would love to see the problem 
solved technologically instead of regulation.
    Secretary Bodman. I agree with that, sir.
    Mr. Green. And that goes across national lines. Let me jump 
ahead on one. We hear that cellulosic ethanol is more efficient 
than corn-based ethanol and more compatible with our existing 
fuel supply infrastructure. Is that generally the opinion of 
the Department?
    Secretary Bodman. Cellulosic ethanol would be produced over 
a broader range of States. That is the advantage that it has 
and so the goal here would be to have a series of regionally 
based industries based on different sorts of cellulose that 
could be grown within a State or a group of States in a region 
and so that is why it is--and also, cellulosic ethanol has a 
substantial advantage in terms of its contribution to global 
warming problem, namely that it has a more substantial 
reduction in carbon dioxide emissions than corn does.
    Mr. Green. Well, and I know the interest of I think a lot 
of Members and we are hearing it the last few weeks, that it 
would be important for our renewable fuels policy to have a 
feedstock neutral so we don't pit our cattle raisers against 
our corn growers, and I would hope the Department will pursue 
that objective when we deal with those policies. My last 
question is, I would also like to raise the issue of carbon 
sequestration in oil and gas production. When exploration 
companies drill for oil and natural gas, they often inject 
carbon dioxide gas into the underground rock formations to 
create pressure to put that product out. The fact that they 
reinject the CO\2\ underground has two benefits. One, the gas 
does not contribute to our global warming, and it creates a 
demand for others to capture that CO\2\. For those reasons, I 
want to make sure the Department of Energy works with this 
particular industry due to their expertise with the DOE dealing 
with carbon sequestration, and can the Department give us a 
commitment that we would like to see that expanded, 
particularly when we are dealing with oil and gas that we could 
sequestrate that CO\2\?
    Secretary Bodman. Yes, sir.
    Mr. Green. Thank you. Thank you, Madam Chairman. I actually 
yield back a minute.
    Ms. DeGette. Thank you very much, Mr. Green. We all commend 
you, and I am now pleased to recognize Mr. Stearns from Florida 
for 5 minutes.
    Mr. Stearns. Thank you, Madam Chairwoman. Mr. Secretary, I 
am just pulling up here on my little Web here. It says northern 
Michigan is experiencing among the top-10 coldest starts ever 
in the last 100 years. When you read this kind of information, 
does it confirm or not confirm global warming?
    Secretary Bodman. I don't think it is relevant, sir.
    Mr. Stearns. So when I read different parts of the country 
are experiencing the coldest they have ever had in 100 years, 
that has no relevance on the debate?
    Secretary Bodman. No, sir, I don't believe so.
    Mr. Stearns. And why is that?
    Secretary Bodman. The existence of global warming as an 
issue comes from observation, namely the fact that the 
temperature has increased on average for the world coupled with 
an analysis of carbon dioxide percentage in the atmosphere, 
that also reaching a record, coupled with an analysis done in 
part using Department of Energy computers of various models 
that have been organized and developed and worked on by 
scientists who work for some 12 or 13 different agencies within 
this Government.
    Mr. Stearns. Well, we have had a hearing on this and there 
was some debate upon the statistical information that was used 
to come up with these figures. Are you aware of any of that 
analysis that there is some controversy on it?
    Secretary Bodman. Yes, I am aware of it.
    Mr. Stearns. So based upon that, some people would indicate 
that it is still not scientifically 100 percent proven that the 
figures that you quoted, the increased warming is accurate. 
Would that be a fair statement?
    Secretary Bodman. Would it be a fair statement to say that 
some people say that? I don't happen to subscribe to that, as I 
suggested to you, but it would be a fair statement that some 
people believe that. I don't.
    Mr. Stearns. Let me start out by saying there is some talk 
about focusing on solar energy and biomass, ethanol. At the 
University of Florida in my congressional district, they are 
developed new, innovative technologies for the conversion of 
renewable biomass into fuel. We have 15 million acres of 
forestland and 10 million acres of farmland, so Florida has a 
tremendous potential to become a national leader and producer 
of bioenergy. And so my question is, the President has laid out 
his initiatives for biomass and alternative fuels in his State 
of the Union recently. How will these goals be met and how much 
is DOE proposing to spend on them and are there other agencies 
that are involved?
    Secretary Bodman. We are spending what to me is a lot of 
money in the 2008 budget that is before you, $180 million 
roughly to be spent on cellulosic ethanol. We are proposing to 
spend significant amounts of money on wind, on solar energy, on 
electric transmission, all of which will contribute to the 
delivery of renewable energy to large markets. So I am 
satisfied that we are spending a good deal of money in our 
Department that is coupled with a similar kind of funding 
stream, even higher, I believe, for the Agriculture Department 
for their funding of work in exactly the area that you 
mentioned, developing cellulosic-based ethanol.
    Mr. Stearns. I would to commend, as others have, the 
administration's proposal to increase the Strategic Petroleum 
Reserve and the Advanced Energy Initiative as part of the 
administration's overall strategy for reducing Americans' 
dependence. The President has called for this expansion .5 
billion barrels to 1.5 billion barrels and DOD has budgeted 
$168 million in fiscal year 2008 to begin that process. If you 
could, please describe the long-term plan for the Strategic 
Petroleum Reserve if you can just briefly.
    Secretary Bodman. First of all, the current reserve 
consists of five different locations, two in Texas, two in 
Louisiana. The total amount of oil in the reserve today is 690 
million barrels. We have enough funds to start purchasing oil 
at a rate of about 50,000 barrels per day, which is a very 
small fraction of what we use in this country. It is like 2 
percent. And so we will start that in the next couple of months 
through a Presidential order to spend--we have $500 million or 
so that we have in the kitty that we would set aside from the 
sale previously of oil after Katrina and Rita that we expect to 
get about a year from now. Late this year we expect to have 
completed the purchase and to be back in a position where we 
have 727 million barrels, which is the current capacity. The 
Energy Policy Act indicates that we are to expand the size of 
the SPR to 1 billion barrels. We have a plan in place to do 
that that involves the selection of a fifth site in Richton, 
Mississippi. We expect that to take the next 5 years to get 
that built, to get two of the four facilities expanded and then 
to add additional oil to it, and it will take 5, 6 years before 
we accomplish that. The next half a billion barrels will come 
after a thorough analysis and will take until 2027 to 
accomplish.
    Mr. Stearns. Thank you.
    Ms. DeGette. The chair now yields herself 6 minutes. Mr. 
Secretary, let me add my thanks for you coming today. I want to 
talk about a couple of issues. The first one is renewable 
energy. Both the President in his State of the Union speech and 
you today in your testimony have made it clear that this 
administration has a goal of transitioning to renewable energy. 
Is that correct?
    Secretary Bodman. We have a goal of having renewable energy 
as a far greater component of our motor fuels in our country, 
yes, ma'am.
    Ms. DeGette. Thank you. And in order to achieve that goal, 
it would seem to me that we would have to have a national 
commitment to scientific research. Is that correct? We need 
more research into renewable energy in order to increase that 
use?
    Secretary Bodman. That is fair, yes.
    Ms. DeGette. I am really concerned therefore about the 
funding cuts that the administration has proposed to the 
National Renewable Energy Laboratory, which is in my home State 
of Colorado, and which is the preeminent research facility on 
renewable energy and energy efficiency in the world. According 
to the budget, it looks to me like the 2007 requested amount 
was $187.5 million and this year the Department is requesting a 
cut. They are requesting $181.5 million. Is that correct?
    Secretary Bodman. This is for work on cellulosic ethanol?
    Ms. DeGette. This is for the National Renewable Energy 
Laboratory in Golden, Colorado.
    Secretary Bodman. No, I know that, but we are requesting 
about $180 million for just renewable energy or just cellulosic 
ethanol, much of that, most of that to be spent at NREL.
    Ms. DeGette. Well, according to the DOE 2008 budget, the 
NREL budget request for 2008, the entire NREL budget request is 
$181,508,000 versus last year where the request was roughly 
$187.5 million, right?
    Secretary Bodman. That is accurate, yes.
    Ms. DeGette. So my question is, if we really are going to 
have a commitment to renewable energy, how can we justify a cut 
to the NREL budget?
    Secretary Bodman. The NREL budget has a number of different 
initiatives. The budget for cellulosic ethanol, which is the 
component that you started asking me about, is going to 
increase by a substantial amount over that which we requested 
last year.
    Ms. DeGette. And is that research being done at NREL?
    Secretary Bodman. A lot of it is, yes.
    Ms. DeGette. So what the administration is proposing then, 
if I hear you correctly, is a big increase for cellulosic 
ethanol and then you would have to drastically cut over types 
of renewable research, correct?
    Secretary Bodman. I don't have the breakout of what work is 
being done at NREL, and I would be happy to take the question 
for the record and I would be happy to give you an answer.
    I don't have a working number on it. I would also tell you 
that I think that as we work our way through this, it is highly 
unlikely that we will end up with NREL being reduced.
    Ms. DeGette. Well, I think you are right about that and I 
think the reason is because just as in the continuing 
resolution where Congress, the Democratic Congress put more 
money, I think Congress will increase these funds. But what I 
am concerned about is, if the administration really has a 
commitment to renewables. It would seem that in your budget for 
NREL, you would be asking for an overall increase and not just 
really robbing Peter to pay Paul, one type of renewable versus 
another.
    Secretary Bodman. I understand, and I don't have an answer 
to that, but I would be happy to get it for you.
    Ms. DeGette. The other thing I will let you know, and this 
is something else you should explore, Mr. Secretary, last year 
the DOE tried to lay off 32 workers. In fact, they did lay off 
32 workers at NREL and then the President was scheduled to go 
there the next week for a press conference at NREL and so they 
hurriedly hired all those 32 workers back before he could come 
and announce his renewable initiative. So the other question I 
have is, does the Department intend this year to lay off 
scientists at NREL? And if you can look at that, because I 
think that is really a direction going backward and I don't 
think that the administration should say it is committed to 
research into renewable energy and then be laying off 
scientists, and I think you would probably agree with that.
    Secretary Bodman. I do agree, and I don't expect that that 
would be the case.
    Ms. DeGette. OK. I just want to ask you one more thing, 
because this Los Alamos situation. Mr. Barton and I went down 
to Los Alamos a couple of years ago and did a site visit where 
we had a complete change. Everyone had been fired and we had a 
complete change of administration down there. This was after 
the last security breach and they were instituting new 
technologies and new personnel techniques and so on, and I 
commend you for making a quick and decisive change in the 
leadership down there but I guess I would say that we need to 
work together to make sure that we get some continuity and some 
high standards because it can't be helpful towards our goal of 
securing that facility having these continual personnel 
changes.
    Secretary Bodman. I agree with that, and I will be happy to 
work with this committee as well as other committees in 
Congress to accomplish that.
    Ms. DeGette. Thank you so much, Mr. Secretary. I am now 
pleased to recognize Mr. Whitfield from Kentucky for 5 minutes.
    Mr. Whitfield. Thank you, Madam Chairman, and Mr. 
Secretary, we are delighted that you are with us this morning.
    Secretary Bodman. Thank you, Congressman.
    Mr. Whitfield. Thank you for the great job that you do in 
trying to use more nuclear power. We have a 250-year reserve of 
coal, more renewables, and we appreciate your effort in helping 
develop clean coal technology. Mr. Secretary, as you know, USEC 
is operating the gaseous diffusion plant down in Paducah and it 
is the only uranium enrichment plant operating in the country 
today, and the Environmental Management Office in Lexington of 
course oversees the environmental cleanup, and the Oak Ridge 
Operations Office has historically managed the lease to make 
sure that USEC is complying with the terms of that lease, and 
they have always had a contract and most recent there has been 
a firm named Hazelwood that provides that service for Oak Ridge 
operations, and unless I am mistaken, it looks like that in the 
fiscal year 2008 budget, that money for that purpose has been 
zeroed out, and we have always had some concern that there may 
be an effort made to move that responsibility from Oak Ridge 
operations up to the Environment Management Office in Lexington 
and merge that responsibility. A lot of us have concern about 
that and it is certainly possible that I misread the budget but 
I was wondering if you would make a comment on that or you are 
aware of that.
    Secretary Bodman. I have no idea, sir. I would be happy to 
find out for you and give you an answer.
    Mr. Whitfield. Well, I would really appreciate that, and I 
know in the past you all have been very good in getting back 
with a lot of questions.
    Secretary Bodman. I will be happy to respond. I am 
unfamiliar with that turn of events.
    Mr. Whitfield. And then of course there has always been 
money in the budget under safeguard and security at the USEC 
plant and I have been told that the funding for that has been 
zeroed out for fiscal year 2008 as well, and if your staff----
    Secretary Bodman. I would find that very surprising but 
again, I don't know that and I would be happy to respond to 
that question.
    Mr. Whitfield. Well, I appreciate that very much and we 
look forward to talking to your staff more about it as we go 
along.
    Secretary Bodman. Thank you, sir, very much. I appreciate 
it.
    Mr. Whitfield. Madam Chairman, I yield back the balance of 
my time.
    Ms. DeGette. The chair now recognizes the gentlelady from 
California for 6 minutes.
    Mrs. Capps. Thank you, Madam Chair, and again, Mr. 
Secretary, as I said in the beginning, welcome to the 
committee, and thank you for answering the questions and the 
ones I am about to pose. As you know, the Department of Energy 
has been plagued for years and through more than one 
administration by long delays in issuing appliance efficiency 
standards. So far you seem to be meeting the aggressive 
schedule that you set last year for getting the required 
standards out and I am pleased that you have asked for 
additional funds, and we may get back to that topic, but 
however, I am very concerned that recent proposed standards 
have been weak and are not using the tremendous potential of 
this program to address our energy needs. For example, the 
proposed home furnace standard is well below the norm that 
already exists in much of the North. The only real savings from 
the furnace standard would be if northern States were allowed 
to enact a higher standard, and a similar situation exists in 
California. The State was prepared to put in place a new water 
efficiency standard for residential washing machines but just 
days before that rule was to take effect on January 1, DOE 
denied California's request to set the standard. Californians 
could have saved a lot of money, water and vast amounts of 
energy but we needed a Federal waiver to set the new water 
standards, and why was it denied? Among the reasons for this 
denial was the absurd, I believe, suggestion, and I am going to 
put this in quotes, ``that California failed to prove it has 
unusual and compelling water interests.'' We discussed where I 
live, Mr. Secretary, in a coastal desert. Much of California 
treats water like gold, and actually the delivery of water in 
California is the single largest user of electricity. So we do 
have unusual and compelling water interests and we have had 
these for decades. In this case, instead of allowing a State to 
proactively and voluntarily look inside its own jurisdiction 
for a way to save energy, the Federal Government actually 
stopped us from doing so, and I would like to have you comment 
on DOE's action, and also keeping in mind the request by the 
northern States for home heating standards.
    Secretary Bodman. Well, first of all, I did ask about this 
at the time that this was being done and I to be honest have 
forgotten the rule. I will be happy to get it back to you. But 
there was a concern not that there were a lack of interest in 
water, I never heard that before, but that there was a lack of 
legal standing that the State had for some reason. There were 
other reasons offered in that letter, I am sure, and I don't 
have it there. I would be happy to take a look at it or be 
happy to look it up. We have it. So it was done on a, at least 
what I would term to be a technicality and not on the merits of 
the case. I would also tell you that part of the reason that 
this Department has struggled, and this has been a bipartisan 
struggle, it has been back since the 1990's that we have had 
problems of setting proper standards of efficiency. When you 
set things in our country, you mentioned furnaces in the North. 
Well, furnaces in the North are different than furnaces in the 
South and therefore one is required to set a standard and those 
standards are a problem trying to deal across the board. So we 
are constantly meeting with interest groups, both on the 
manufacturing side and on the energy efficiency side, if you 
will, and we are attempting to broker substantial interface and 
improvement by working together with those two groups working 
together and it is that effort that is yielding some 
significant results. We certainly didn't achieve results for 
the State of California, and I will try to respond more fully 
on that.
    Mrs. Capps. I would appreciate an answer in writing on that 
and----
    Secretary Bodman. I would be happy to do it.
    Mrs. Capps. And it is also kind of ironic and difficult 
that the response didn't come until 3 days before the end of 
the time and that puts us again at 5 years until this can 
happen. I want to lead into the question. I want to just beg 
that we do want Federal standards whenever possible but you are 
right, we do have regional differences, and that is what the 
waiver process should be about, in my opinion, to allow States 
to push ahead and sometimes the industries then will follow 
suit and then we get the desired result of energy efficiency 
and that is the goal.
    Secretary Bodman. I understand.
    Mrs. Capps. But back to the point that I did mention in the 
beginning when I commended you have gotten some increase in 
funds and you set out an aggressive schedule, but I wonder if 
you could tell us how you have analyzed the staffing and 
funding requirements to carry through the standards planned 
because there seems still to be a bottleneck and some of the 
largest possible savings, for example, some standards on 
furnaces and refrigerators are not included in the plan and 
thus won't be considered for another 5 years. This seems to be 
a difficulty that should be surmounted, particularly with extra 
funds that you could for staffing.
    Secretary Bodman. Yes, I think that we will certainly 
encourage that. I just will tell you that I don't deal with the 
details of how this happens but I do deal with the details that 
we have enough resources and we have enough people and I have 
been satisfied with what I have been told about our ability to 
comply with the 2011 date and getting back on a schedule that 
we have committed to and so that is 4 years out, and we are 
committed to that.
    Mrs. Capps. Maybe when you respond to the one question on 
the washing machines, I could also hear how you plan then to 
implement along the path that you have to meet the standards.
    Secretary Bodman. I would be happy to.
    Mrs. Capps. Thank you.
    Secretary Bodman. Thank you.
    Ms. DeGette. Mr. Secretary, if I can inquire, we have, it 
looks like, about six Members left to question and of course 
others may come in, we don't know. Would you like to have a 15-
minute break now or would you just prefer to go straight 
through?
    Secretary Bodman. I would rather get it done if we can get 
it done.
    Ms. DeGette. Thank you. That would be my preference as 
well. The chair now recognizes Mr. Walden of Oregon for 5 
minutes.
    Mr. Walden. Thank you very much, Madam Chair. I appreciate 
it. Mr. Secretary, it is good to see you again. Thank you for 
the work you are doing for the country. I want to thank you 
especially for sending Dale Gardner out to the Oregon Institute 
of Technology's renewable energy conference. We had invited 
you, and I know your schedule is very complicated and we do 
appreciate sending Dale out there. There are some issues though 
that I would like to raise with you. Of course, I would be 
remiss coming from the Northwest if I didn't raise some level 
of objection to the administration's decisions regarding the 
Bonneville Power Administration and the plan to capture the net 
secondary revenues above $500 million a year. We do appreciate 
the way this proposal came out as opposed to the one last year 
which was going to set it in motion immediately and rather this 
proposal at least allows and calls for facilitation among 
various parties in the Northwest. So while we appreciate that, 
we still obviously have concerns about the impact this 
potentially could have on rates in the Northwest, and I want to 
express that to you as I have before.
    Secretary Bodman. It is dutifully understood. I had the 
occasion to testify before the Senate committee yesterday and 
there were a number of Senators from northwestern States who 
offered even if I say, even more vigorous tones----
    Mr. Walden. I am not surprised.
    Secretary Bodman. I just would tell you what I told them, 
and that is, in my judgment, there is a prudence about that 
that makes sense to me just in terms of managing the business 
and trying to put some money aside to save it for the future 
and you automatically pass everything through to your 
customers. I wouldn't do that if I were running a company and 
that is what we tried to encourage the management there to do, 
to think through, and that I think is a reasonable and prudent 
thing to do.
    Mr. Walden. And the notion that if we prepay debt which we 
are on a schedule to pay now, agreed to by the Government, that 
if we get into a problem we might be able to draw back on that.
    Secretary Bodman. That is the goal.
    Mr. Walden. And that is a better proposal than just taking 
the dollars off the top and never getting any----
    Secretary Bodman. No, and that is the goal.
    Mr. Walden. Because you know how wide the swings can be in 
terms of----
    Secretary Bodman. I understand.
    Mr. Walden. Unless you are better at predicting the weather 
than anybody on television and tell us what the snow pack will 
be and the runoff will be.
    Secretary Bodman. I can tell you, sir, that I am not.
    Mr. Walden. I appreciate that. I also want to raise some 
concerns about the funding specifically for the geothermal 
research that again has been zeroed out in this budget and I 
have objected to this before. As fate would have it, not only 
do we have this wonderful renewable resource center at Oregon 
Institute of Technology, one of their great focuses is on 
geothermal energy production and how you take what is sort of 
scientifically known and then convert it into something that is 
practical, and there is some really exciting opportunities in 
that field. Many parts of the country, and indeed many parts of 
my district where existing known geothermal resources are, 
there are some new technologies they tell me could result in 
much lower temperature production of power among other things, 
and I know the administration has been committed to advancing 
the idea of renewables and new technologies and research, so I 
hope you would take another look at that. I know we will in the 
Congress again but it is I think an essential element.
    Secretary Bodman. It would be of interest to me if the 
reason that it has been zeroed out is that the general thesis 
is that the research has been done. This is a matter now of 
applying the technology that has already been developed and 
getting it into the marketplace. Queried what role should the 
Government play, that should be something the private sector 
does. But if there are areas for research, and there are 
different voices on this subject, I would like to know about it 
personally.
    Mr. Walden. I would be happy to get that----
    Secretary Bodman. If you would do that for me, I would 
appreciate it.
    Mr. Walden. It sort of reminds me of that old story, I 
think it was out of the patent office, that somebody at the 
turn of the century said we really didn't need one because 
everything that had what could be invented has been invented 
and I am finding even in the area of warm water in the ground, 
they are finding new technologies, new ways to----
    Secretary Bodman. Well, this whole area of what role the 
Government should play and how much we should do, it is very 
difficult to discontinue anything. Once you start down a path, 
it is hard to discontinue anything once you get going because 
people like it and they----
    Mr. Walden. I understand.
    Secretary Bodman. Members of your committee like it. I am 
sure I will hear more about it later.
    Mr. Walden. And I appreciate that position, so we will 
continue to----
    Secretary Bodman. We tried to be reasonable and tried to 
make a judgment on where to put the money.
    Mr. Walden. And we will help you even be more reasonable. 
How is that?
    Secretary Bodman. All right.
    Mr. Walden. Thank you, Madam Chair.
    Ms. DeGette. The chair recognizes the gentleman from 
Pennsylvania, Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you. Mr. Secretary, welcome and thank you 
for spending all this time that Members can ask questions. Mr. 
Secretary, I can't think of anything more important to the 
future of our country than lessening and hopefully somebody 
eliminating the need to go outside our borders for oil and for 
energy. It seems to me that we would not be in Iraq today had 
we had energy independence in the country and there is nothing 
more important. I have voted for every energy bill that has 
come out of this committee since I have been a member of this 
committee. I have advocated for a diverse portfolio of nuclear 
energy. I just can't tell you how frustrating it is to see that 
this is not being given the priority our country needs to give 
this. I can't think of anything more important, and every year 
we hear talk when the budget comes out, we have lost more money 
in Iraq that we can't even account for than what we spend on 
making energy independence a priority, and it is very 
frustrating. I was happy to hear you tell Mr. Shimkus that 
coal-to-liquids was part of your definition of alternative 
energy sources, and I have a question for you, sir. My State, 
Pennsylvania, was about to become the first State in the Nation 
to site a plant that would convert waste coal into zero-sulfur 
diesel fuel and home heating oil. It was an $800 million 
project. The Department of Energy in 2003 had committed a $100 
million zero-interest loan as part of this project. Site 
preparation for this project started just this past fall and 
construction was to start this spring of 2007. In the 
President's budget, this $100 million zero-interest loan was 
rescinded. I wonder, Mr. Secretary, if you could speak to me 
about this rescission and why just as we were about to put 
online a facility that would have converted 1.4 million tons of 
waste into 60 millions gallons of fuel, that we have pulled the 
plug on this?
    Secretary Bodman. That particular project, there had been 
an inability on the part of the company and my Department to 
reach agreement on the terms of whatever the loan was, and as I 
understand it, we have been working at this for 4 years. This 
grant was originally made some 4 years ago.
    Mr. Doyle. Two thousand and three. That is correct.
    Secretary Bodman. And our folks were of the view that the 
project was not going to be real, I am just telling you that 
that was the report that I was given. It was not going to be 
accomplished and that they did not have a financial plan that 
held together and therefore for that reason, that the financial 
viability of this program was called into question and that was 
the reason for the rescission.
    Mr. Doyle. Mr. Secretary, I would ask that you revisit this 
with your staff. We have information quite to the contrary. 
Governor Rendell and the State of Pennsylvania, which is also 
contributing considerable funds to this project, has come out 
publicly and asked the President to revisit this rescission in 
the budget. All indications that are given to us is that this 
project is ready to start construction in a matter of months, 
so it is hard for me to understand how we could have such 
different information on where this project is, and I would ask 
that you at the very least revisit this with your staff, and I 
would be interested if you could forward to my office all of 
these reasons for the rescission so that we can address them 
and make sure that at least we all agree that the facts are the 
same.
    Secretary Bodman. I would be happy to do that, sir.
    Mr. Doyle. Thank you. I appreciate that. Mr. Secretary, in 
his State of the Union address, the President said we must 
continue changing the way America generates electric power by 
even greater use of clean coal technology. The concern I have 
is every year we hear good words but actions don't seem to 
follow the words, and while funneling money into FutureGen, a 
project that I think has minimum support of industry and is way 
behind where it should be, given the President's goal, we are 
continuing to cut money from clean coal programs in order to 
fund this other initiative at the NETL, which is just outside 
my district and in Congressman Murphy's district, they are 
seeing their core coal research program being cut by $28 
million while their oil and gas programs which were getting $60 
million have been eliminated. At the same time, $149 million of 
clean coal technology deferred funding which was to be used for 
the next clean coal power initiative solicitation has been sent 
back to Treasury. The President has also stated that these 
technologies will help us be better stewards of the environment 
and help us to confront the challenges of global climate change 
but we are terminating a $23 million program, innovations for 
existing plants, that is entirely concerned with the 
development of environmental technologies necessary for the 
existing fleet of coal-powered generation. We are talking about 
over 1,500 power plants that provide 52 percent of the Nation's 
electricity. And finally, the oil and natural gas research 
programs that are being zeroed out provide funding to 5,000 
small, independent oil and gas companies that employ an average 
of less than 20 people. Can you explain to me how gutting all 
these programs helps further the President's goals that he 
states his State of the Union address?
    Secretary Bodman. One, oil and gas, oil at $60-plus a 
barrel, natural gas at 780 MCF. In the President's view, and I 
subscribe to it, that there is plenty of incentive for industry 
to develop whatever technology needs to be developed in order 
to accomplish that. Secondly, with clean coal, I just simply 
have different numbers. At least my number of the clean coal 
part of what goes on in fossil energy is $385 million, up from 
$281 million in last year's request, up from $314 million the 
year before.
    Mr. Doyle. I will check our numbers and maybe you can send 
me yours.
    Secretary Bodman. I would be happy to.
    Ms. DeGette. The chair recognizes Mr. Gonzalez from Texas 
for 5 minutes.
    Mr. Gonzalez. Thank you very much, Madam Chair. Welcome, 
Mr. Secretary. My apologies, a lot of us have other things we--
--
    Secretary Bodman. No, I understand entirely. Not a problem.
    Mr. Gonzalez. But thank you for your patience and also I 
want to tell you that I am quite impressed with the breadth of 
knowledge, specific questions to specific projects, so either 
you keep up with everything or you have one heck of a staff 
that----
    Secretary Bodman. Well, I know the latter is true and I 
would like to think the former is also accurate.
    Mr. Gonzalez. It is usually a combination. Now, it has been 
refreshing in the State of the Union address by the President, 
your own remarks and what is coming out of the Department of 
Energy, there seems to be a real emphasis now on alternatives, 
renewables, biofuels, everything that we have been talking 
about for a number of years but I never really believed that 
the administration embraced. Would you say that that portion of 
this part of the portfolio is essential and fundamental to an 
energy policy when we are talking about the renewables, the 
alternatives, the efficiencies, which all equate to 
conservation?
    Secretary Bodman. Yes.
    Mr. Gonzalez. So and the reason I say that, and you know 
where I am probably coming, will you say that we have finally 
reached the point where conservation is a sufficient basis for 
a sound, comprehensive energy policy? And to be fair with you, 
you know where I am going, to Vice President Cheney's remark in 
2001 where he said conservation may be a sign of personal 
virtue but it is not a sufficient basis for a sound, 
comprehensive energy policy. What I am sensing is that we have 
reached that point I would have to ask the Vice President, that 
it is not just a personal virtue anymore.
    Secretary Bodman. I think it is fair to say that 
conservation is--I don't know that I would call it the basis of 
a comprehensive strategy or policy but it certainly is an 
important component of such an animal, so I would agree with 
that.
    Mr. Gonzalez. Now, regarding ethanol, I am from Texas, and 
you know how that works because you are very knowledgeable, but 
the oil industry people made some comments recently on ethanol 
and this is somebody in the San Antonio area. He said because 
gasoline demand is growing 1.5 percent to 1.7 percent a year, 
and I am paraphrasing here--biofuels reaches 35 billion 
gallons, that is not enough to keep up.
    Secretary Bodman. I am sure it is. The goal that the 35 
million gallons would accomplish would be that 20 percent of 
the then-amount of gasoline that we use would be alternative 
fuels 10 years from now and so when you say--I guess I would 
respectfully disagree with whoever said that.
    Mr. Gonzalez. I wanted your opinion on it. Despite the 
growing use--in other words, you are projecting out the next 
few years the increased demand for standardized, good old 
gasoline is the way we do it?
    Secretary Bodman. Yes.
    Mr. Gonzalez. And taking that into consideration, 35 
billion still----
    Secretary Bodman. The 35 million is 15 percent and then we 
accomplish the other 5 percent by the reduction of gasoline 
usage by increasing CAFE standards for automobiles as well as 
trucks and light trucks and SUVs.
    Mr. Gonzalez. And I know we are looking at hydrogen and 
others, how we fuel our vehicles, but ethanol is probably where 
we are putting a big portion of our faith and investment. 
Wouldn't you say that?
    Secretary Bodman. Yes, sir, I would agree with that.
    Mr. Gonzalez. And part of it is so that we are not 
dependent on foreign sources of energy, fuel, oil?
    Secretary Bodman. That is correct.
    Mr. Gonzalez. All right. And so in today's paper we are now 
discussing agreements maybe with Brazil regarding ethanol, and 
what is your view or your position regarding the degree that 
imported ethanol will play in meeting some of our benchmarks?
    Secretary Bodman. First of all, I would not advocate 
changing either the tariff or the subside that exists. One 
lasts until 2009, the other I think until 2010 or 2011, and as 
we start to approach that, I would think that that was 
something that the administration and Congress would work 
together to try to examine. There are a number of different 
proposals and ideas that I have heard and we would like to 
share our views with yours and see if we can't come up with a 
proposal that makes sense.
    Mr. Gonzalez. And if you will indulge me, I have a few 
seconds but I wanted to touch on, just give you a heads-up, we 
have a municipally owned utility company and we would like to 
make greater investment in nuclear power, but there are no 
incentives when it comes to municipal-owned utilities and 
representatives from CPS Energy Company will be meeting with 
general counsel today from DOE and I really would appreciate it 
if you could explore what those incentives might be there that 
we may institute. Again, I want to thank you for your patience, 
your time and your service.
    Secretary Bodman. Thank you. I appreciate that. Is it your 
view that because of the municipally owned, that it is not 
eligible for the----
    Mr. Gonzalez. That is my understanding, that under the law 
at that time, that is what is being represented to me, and I 
really would appreciate it if you would explore that.
    Secretary Bodman. That is a new one on me, and I will try 
to take a look at it.
    Mr. Gonzalez. Thank you.
    Ms. DeGette. The chair recognizes the gentleman from 
Washington State, Mr. Inslee, for 5 minutes.
    Mr. Inslee. Thank you, Mr. Secretary. Many of us think the 
best way to categorize the global warming challenge is a 
planetary emergency, that it rises to that level, and that 
really to approach it, we need to have an approach similar to 
John F. Kennedy's effort to go to the moon, and it takes that 
type of scope of national endeavor, and I have to say looking 
at the budget, I think we fall well short of getting to the 
moon. I don't think this plan will get it to Cleveland when it 
comes to solving CO\2\, and I wanted to show you a couple of 
charts while I talk about that, if we could get those up on the 
screen. First one shows R&D budgets going back to the late 
1970's, 1978 on the left show our budgets. These are constant 
dollars, and you see over time they have shrunk down to 2005 we 
are down here at less than a third of what we were spending 
during the late years of the Carter administration investing in 
energy research, and you are not the only administration who 
has been short in that regard. But I think this demonstrates 
how little we are investing in a planetary emergency relative 
to at least one other occasion where we were serious about 
energy, the late 1970's, where we actually increased our full 
efficiency of our cars by 60 percent.
    If we look at the next slide, if you can look it, it 
compares our declining investment in research R&D to other 
areas. On the left it shows our energy investments in the 
little left-hand chart. We had a spike during the Carter 
administration. It has been flat since then. In the middle 
chart we show our R&D in health, and you see it has thankfully 
gone up dramatically by a factor of eight or nine during that 
same period. And on the right of the chart, the right graph 
shows the increase in R&D for military R&D during that same 
time period. What you will see is, in military R&D we have this 
enormous increase in R&D but on another major threat to America 
with global warming we have less than a third, now just over a 
third with your budget, what we were spending in the late 
1970's, and I point this out because I think that our country 
is going to have to come to grips with the scope of the 
challenge that global warming faces and I just have to express 
that I think our efforts are going to have to be much higher 
magnitude. I am going to ask you a question about that in a 
moment.
    Second, I ask you about the schizophrenia in the budget 
that I had seen, and we are spending, you just told us, about 
$40 million a year on clean coal technology on CGCC plants that 
might be able to sequester CO\2\ some day, and I think that 
would be great. I support that research. But the problem is 
under your policies, no one will ever build such a plant 
because under the President's policies, he doesn't want to do 
anything to regulate carbon dioxide. He wants to make it free 
for companies to put unlimited amounts of carbon dioxide, which 
they do today, for free, at no cost, no regulation. They can 
put any gigatons of CO\2\ they want. As a result of that, even 
if the taxpayers develop this technology, no one is going to 
ever deploy it because under the Bush plan, he wants to let you 
just keep putting carbon dioxide with no restrictions 
whatsoever into the atmosphere, and I think that is a 
schizophrenic policy that dooms us to failure to actually these 
new technologies deployed.
    In the last slide I want to show you, I would like your 
comment. If we can have the last slide up there? This shows the 
wheel-to-wheel global warming gas emissions per gallon for 
various sources of fuel. First on the left is crude oil. The 
third bar I want to show you is coal to liquids, and it is in 
two parts. It is CO\2\ emissions on the light shade. The blue 
on this chart up here shows the tailpipe CO\2\ emissions and 
the last part is the production CO\2\ emissions, and what it 
shows is that the coal-to-liquids technology which as I 
understand your budget and the President's speech would allow 
that to be considered a, quote, alternative fuel that would get 
the benefits of your budget actually without sequestration has 
more CO\2\ emissions than crude oil and with CO\2\ 
sequestration or processing has essentially equivalent CO\2\, 
and this chart actually shows a little bit more CO\2\ emissions 
than actually burning oil, so we are going, if not backwards, 
we don't make any progress on CO\2\ emissions. And you, as I 
understand, consider this eligible for the alternative fuels 
credit. So my take on the budget is a wholesale failure to 
really face this enormous challenge that we have, one that I am 
very optimistic we are going to succeed in eventually because 
we have got the know-how to do it and we are going to grow 
markets, we are going to sell our technology to China when we 
finally get this to be commercialized. So I would just ask your 
comment on those observations, if you would?
    Secretary Bodman. Sure. First, in terms of the coal-to-
liquids, I would hope that part of this would be ways of 
sequestering the carbon dioxide that comes out of this process 
and so the production part of this, I agree with you that in 
order to deal with coal-to-liquids, you have to account for the 
fact that you are producing a lot of carbon dioxide in the 
production process, and one has to develop technology to 
sequester it, so this would be dependent, in my judgment, on 
that effort to sequester carbon dioxide that we are already 
working on. And as to the differences between the tailpipe, 
those emissions are, at least it strikes me, are relatively 
inconsequential differences from oil.
    Mr. Inslee. Just one closing comment. We are not going to 
be able to solve this problem unless we put taxpayer money into 
CO\2\ reduction, and spending millions of dollars on something 
that does not reduce CO\2\ emissions for a new fuel is not 
going to get us to where we need to go, and that is my concern, 
and my time has expired.
    Ms. DeGette. The gentleman's time has expired. The chair 
recognizes Mr. Matheson from Utah for 5 minutes.
    Mr. Matheson. Thank you, Madam Chair, and Mr. Secretary, I 
don't expect you have detailed knowledge of the specific 
project in Moab, Utah, but I am going to ask you about it 
anyway and we may need a written response after we are done 
here.
    Secretary Bodman. Sure.
    Mr. Matheson. We talk about this a lot, and historically 
back in 2000, Congress authorized moving the pile. There were 
some discussions about wanting to keep the pile in place in 
2005. Going through the record, a decision was issued to move 
the pile. And then you and I had a discussion in a Science 
Committee hearing about where the budget proposed last year 
showed what might have been perceived as a smaller amount going 
into moving this pile than what we would have needed to 
complete this in a reasonable time frame, and at the time we 
had a discussion about, OK, you don't spend the same every 
year. There is a ramping up, there is associated timeline, and 
I would ask, if there was a sense of what the timeline might be 
on a year-by-year basis to pay for this project and I want to 
reiterate that request because I haven't gotten an answer to 
that one yet about how we project doing this over time in terms 
of dollars, how you budget it out over the years to move this 
pile. The reason that I am particularly concerned about this is 
that ultimately we have issued what is called a request for 
task proposal. DOE issued that in just November of last year.
    Secretary Bodman. Right.
    Mr. Matheson. It should have been good news but what 
concerned me about it is, it talks about only cleaning up two 
and a half million tons of a 16-million-ton pile, and I am 
curious why a decision was made to break this apart and do a 
little bit of the pile when the record decision said we are 
going to move the whole pile anyway, and it just reflects a 
concern on my part about is there a commitment to move this 
pile? Is there a rationale behind breaking this into two 
different contracts, and are we going to be talking about this, 
or will this be talked about long after you and I are both gone 
from being in this position?
    Secretary Bodman. I hope you are still here, sir. I am 
likely to only be here for the next--in fact, for sure I will 
only be here for the next 2 years and I will then have 
completed 8 years and I think I will have completed my duty to 
my country. With respect to this, this is something that the 
Department rightly or wrongly thinks that we did the right 
thing. We made the judgment and we wrote the ROD and we were 
the ones that made a decision that this was the right thing to 
do is to move the entire pile.
    Mr. Matheson. I think that is the right decision.
    Secretary Bodman. Well, I would assume that you do so that 
and we are committed to that. As to why the contract was broken 
in half, I don't know. We will get you an answer.
    Mr. Matheson. I would love to get a follow-up on that and 
also the timing----
    Secretary Bodman. This is expected to take some 20 years to 
accomplish.
    Mr. Matheson. Well, that is news because we used to be 
talking about it taking seven to 10 years and so----
    Secretary Bodman. Well, I am just telling you, at least the 
information I have, that 2028 is the schedule. It may be that 
this is a matter that we have a lot of demands on our 
environmental management operation. We have a lot of demands on 
the budget, as you I am sure are aware, and my guess is that 
that is the reason that this was set up that way.
    Mr. Matheson. Well, if you would be able to follow up with 
just explaining why we broke it into two and also what you 
think the projected schedule is, I would appreciate it.
    Switching issues, do you know how much the Department of 
Energy is going to spend on Divine Strake and other similar 
tests in this fiscal year and the next fiscal year and which 
appropriations acts those tests are funded from, from DOE, 
since you are the manager of the Nevada test site?
    Secretary Bodman. Well, it would be in the NNSA budget. 
That would be coming out of that. That is where the test sites 
funding comes from.
    Mr. Matheson. If you could give me follow-up, and I don't 
expect you to know this number but how much DOE plans on 
spending on this test compared to what DOD is going to spend. I 
would appreciate it if you would follow up on that question.
    Secretary Bodman. Sure. I would be happy to do that.
    Mr. Matheson. The last question I wanted to throw at you 
was about the reliable replacement warhead program. This budget 
provides about $89 million for it. The Navy is asking for an 
additional $30 million. The Jason report, as I mentioned in my 
opening statement, on aging plutonium pits just came out and it 
seems to undercut one of the primary rationales for moving 
ahead with creating these new nuclear warheads.
    Secretary Bodman. Right.
    Mr. Matheson. So I am wondering, and since we haven't got a 
design actually selected yet, I am wondering why we are now 
between your budget and the Navy looking at throwing $120 
million out of this year when we don't have a design yet.
    Secretary Bodman. This is for the design. This is a major 
undertaking, and I believe that it is well justified. It is 
really unrelated to the decision--not the decision but to the 
information we received on plutonium aging that was encouraging 
because I was concerned that we would have to deal with a very 
inherently unstable material. The weapons that we have in the 
stockpile today were designed at a time when our Nation was 
continuing to replace weapons on a regular basis. Every 4 or 5 
years we got a new design, a new weapon and therefore the 
design was done without adequate tolerance for something that 
would have to last for many years, that it was designed to only 
last 3 or 4 years and then it so we had much more narrow 
tolerances in the overall approach to the design.
    So the goal of the reliable replacement warhead is to 
enable us to design something that would have much greater 
tolerances built into it, and where the Secretary of Energy and 
the Secretary of Defense each spring in the month of March--
next month I have to write a letter to the President as a part 
of my job certifying that the weapons that, God forbid, if we 
need to use a weapon in the stockpile that it will work. That 
gets harder to write every year. This initiative is meant to 
deal with that question and to produce a smaller number of 
replacement warheads to replace the stockpile that we have.
    Mr. Matheson. I look forward to continuing the dialog. We 
will submit written questions as well. Thanks, Madam Chair.
    Ms. DeGette. The chair recognizes Mr. Murphy from 
Pennsylvania for 5 minutes.
    Mr. Murphy. Thank you, Madam Chair. Mr. Secretary, I want 
to go back to a point here about the National Energy Technology 
Lab in my district which you visited and you know what fine 
work they do there.
    Secretary Bodman. Yes, sir.
    Mr. Murphy. And I know you were talking about more money 
that goes into FutureGen and other areas like that. What my 
understanding of the bill is that in the request for fossil 
energy research and development in 2008, it is $566 million as 
compared with 2007 which was $592, a reduction of $25 million. 
There is also some significant changes to fossil energy's coal 
and power and oil and gas programs, which I think are concealed 
on the appropriation. Specifically from the coal and power 
program, the existing clean coal technology account of $257 
million is eliminated by transfer of $108 to the 
administration's FutureGen initiative and cancellation of the 
remaining $149 million. Also the $73 million that has been 
allocated to the clean coal power initiative to conduct a 
solicitation for fiscal year 2007, this amount together with 
the prior year funding of what is likely to be available in 
2008 is going to be insufficient to make awards under the 
solicitation for 2008.
    I see this is having been chipping away and pushing at the 
one hand. We really understand we need coal, we have abundant 
supplies of it. We don't have to fund both sides of the war on 
terror when it comes to coal, but it is one of those things 
that I wish we had the kind of energy, if you will pardon the 
pun, behind that of looking at that much like we had under the 
launch of the moon initiatives we had back in the 1960's. And 
so I am very concerned about that. I wonder if you could 
elaborate any further, or if you don't have that information 
available today, I would appreciate if you could get back to me 
with other information about that, how we can continue to 
invest strongly in clean coal technology and the National 
Energy Technology Labs.
    Secretary Bodman. I will be happy to get back to you on 
that. I just would tell you it is the same answer I gave to Mr. 
Doyle a minute ago that my figures show that we have 
significant increases in the clean coal research area. I don't 
have it broken out by laboratory so I don't know what the 
funding would be for a particular laboratory, but if that is 
what your question is, I will be happy to get an answer for 
you.
    Mr. Murphy. Well, I would appreciate that because for that 
laboratory too, I know they do a lot of valuable work and have 
a long legacy in terms of experience there, and although I 
understand that sometimes the parties shift but when we have 
such an asset, I hate to see funding cut where someone else 
starts up and every couple years these sorts of things change, 
so please do that. I think they are great people doing a lot of 
great work. The second thing, you talked a little bit about 
nuclear. As you know, Westinghouse Nuclear is headquartered in 
my district.
    Secretary Bodman. Right.
    Mr. Murphy. We are enjoying a lot of job growth there and 
obviously clean energy, and I am wondering with this, if other 
provisions in the budget are going to look at--if there are 
other things you see in there that are going to encourage the 
construction of more nuclear power plants and now we have the 
Yucca Mountain issue and I know they are looking at about 20 
power plants in America, but do you see there is other things 
within that budget, other initiatives that the Department of 
Energy will be looking at to even push for more nuclear energy?
    Secretary Bodman. Absolutely. First of all, we are working 
on Yucca Mountain, and a parallel and longer term effort, we 
are working on GNEP, which is the Global Nuclear Energy 
Partnership, which has to do with the treatment of, the 
recycling of or reprocessing of spent fuel. It is a way of 
getting at the spent fuel problem. We still need Yucca Mountain 
but the goal is to reprocess that fuel, extract more of the 
energy out of it that we have today and still produce a waste 
that is much less toxic than the waste that exists today from 
our standard utility plants. So that effort is underway. And 
then the Energy Policy Act that you all passed, I like to say 
it has every kind of incentive in there that one could think 
of. It has got an insurance program at the back end. It has got 
front-end loan guarantee provisions in the law. It has got 
production credits in the law. It has got all kinds of things 
that are there, and we are doing our level best to encourage 
the development of more nuclear power in America.
    Mr. Murphy. I appreciate that. I know that we have a lot of 
other issues too and I wish I had more time. I wanted to ask 
about where we stand with some of the renewables like wind and 
solar, et cetera. I don't think if you could answer quickly, 
what level do you think we can get up to in the next 5 to 10 
years with regard to using some of those renewables?
    Secretary Bodman. Wind energy, there is concern about a 
reduction in the amount of effort we are doing on wind. Wind 
has demonstrated that it is close to being economically viable 
and that the goal, or the effort now has to be, how do we get 
the energy that is produced by the wind devices to the 
marketplace and so we need to worry more about transmission and 
we need to worry more about the new technology for long-
distance superconductivity, and all of that is going on in 
another office, another part of the Department. So we are 
enthused about that. The President believes it can be 20 
percent of our total electricity, and that is a big number. It 
is about 1 percent today.
    Mr. Murphy. Well, I appreciate that, Madam Chair.
    Ms. DeGette. Thank you.
    Mr. Murphy. I hope that one of the things the Department of 
Energy also can get us information on what we need to be doing 
with those transmission lines, but I thank the----
    Ms. DeGette. Without objection. The chair now recognizes 
Mr. Barrow from Georgia for 6 minutes.
    Mr. Barrow. Thank you, Madam Chair, and thank you for being 
here, Mr. Secretary. If I am not the last person to talk with 
you today, I am getting close to the last, one of the guys you 
have been waiting for today. I appreciate your patience in 
being with us today. I want to follow up on some of the 
concerns that Mr. Boucher raised about getting this loan 
guarantee program but not just along the lines that are of 
course of importance to him, clean coal technology, but also to 
try and fund research and development of cellulosic ethanol. I 
am going to put in a shameless plug for my part of the country. 
I am old county commissioner and we would have occasion from 
time to time to talk about what the highest and best use for 
something is to try and decide how to zone some property.
    Secretary Bodman. Sure.
    Mr. Barrow. And I think we need to apply that kind of 
thinking toward ethanol production in this country because 
while I certainly want to support corn to gas as much as 
possible, something tells me that the highest and best use of 
corn isn't necessarily putting gas in our tanks. I don't think 
America is going to want to be taking beef off the table, to be 
able to put gas in the tanks. But I can tell you in my part of 
the country, we produce more cellulosic waste doing the things 
we want to do and do better than they do anyplace else in the 
world. We got pine waste and products that are a great raw 
material. So I want to encourage you as your Department moves 
forward in this area to look at cellulosic ethanol research and 
development.
    And back to Mr. Boucher's concerns about the loan guarantee 
program. If I heard you correct, I think I heard you say that 
the Department would be doing well if we are cutting any kind 
of loans or backing any loans by the end of the next year.
    Secretary Bodman. A year from now, I said, and I was just 
giving an honest----
    Mr. Barrow. I just wanted to make sure I had--because you 
didn't say--you didn't give us a hard deadline. You said you 
would be doing well to be doing that, and it sounds like you 
would be lucky to be doing that.
    Secretary Bodman. It takes 6 months to write a rule. We 
have to write a rule, and you have to send out a notice of 
intent to write a rule and then have to dod a draft.
    Mr. Barrow. Well, we have got utilities and we got co-ops, 
we got enterprises in this country that have never defaulted on 
a loan before that are ready to go in this area. They need the 
full faith and credit that you have offered in this program 
that is not going anywhere, so whatever we can do to help you 
help us, please let us know. We have got folks who need to go 
on this who can make a lot of progress in this area if only we 
could free up that credit that doesn't seem to go anywhere.
    Secretary Bodman. I would just remind you, sir, that it is 
limited. I mean, remember, this is all kinds of industry are 
going to be interested and I am concerned that the appetite----
    Mr. Barrow. Which is why I prefaced my remarks with trying 
to you all to try to think about this in terms of what has the 
longest term, most sustainable bang for our buck in renewable 
energy development, and we have a lot of potential there that I 
want you all to be aware of. Touching on the subject of the 
renewable fuel mandates and the program to try and get 35 
billion gallons a year of renewable fuels by 2017, do you all 
have any idea of how many flex-fuel vehicles we are going to 
need in order to be able to match that supply? Because while we 
are straining and busting a gut really to try and do incentives 
through credit, through research and development, through 
direct grants, every way conceivable to make sure that we have 
that kind of supply of renewable energy, what are we doing to 
make sure that the demand is going to match the supply, to make 
sure we have a sufficient supply so people can use the stuff.
    Secretary Bodman. The problem we have is that we have 220 
million vehicles roughly in America today so even as you sell 
17 million a year, that takes you a long time to modify the 
averages, if you will. So Detroit has committed, I believe, and 
I am hesitant to give you a different answer if it turns out to 
be true but to produce something like half of its vehicles in 
shape as a part of a flex-fuel program, I think it is 4 years 
from now. It takes a number of years in order to set up and 
operate and get in place the production activities so they have 
to plan well in advance and so----
    Mr. Barrow. The point is, it is part of you all's plan to 
make sure that the supply of vehicles can meet the demand for 
this.
    Secretary Bodman. We are not ignorant of it. We are working 
on it but it is a legitimate question as to we would like to do 
it frankly without mandates, without saying you will have to 
produce so many vehicles with such-and-such standard equipment 
and we would like to do it without that. Obviously if it proves 
that we have to do that, we will do it.
    Mr. Barrow. One last thing. The Savannah River, which abuts 
my district, drains a basis that serves both the Savannah River 
site and Plant Vogel. Plant Vogel is probably the last 
commercial nuke power plant in the country, if not the last to 
be commissioned. It has got two cells with two more units are 
going to try to be put online. Their unique concern is about 
the river that serves the surrounding riverside area. The 
environmental lab for the Savannah River site is an institution 
long standing. I would like your staff to look into how we can 
expand its mission and broaden its base of support because it 
will provide a lot of support that we need in order to do at 
Vogel what we want to do and to do at SRS what we need to do. 
So I would like your staff to brief us on that so we can expand 
their mission.
    Secretary Bodman. We would be happy to do that. As I think 
about the laboratory, I was supposed to have been there last 
week and then it was canceled but I think it is next week that 
I go so I will be down there and get a chance to visit it 
personally, but they have a lot of expertise in hydrogen 
because of the efforts of the Savannah River site dealing with 
tritium.
    Mr. Barrow. They are experts on hydrogen and they have 
developed a lot of groundbreaking work on groundwater and they 
have been very good at that. They also have an advantage in 
that it is the safest of all the laboratories that we have run 
in our whole district. That is something that is high on my 
list.
    Mr. Barrow. Thank you, Mr. Secretary.
    Secretary Bodman. Yes, sir.
    Ms. DeGette. The chair recognizes the gentleman from New 
York, Mr. Engel, for 5 minutes.
    Mr. Engel. Thank you, Madam Chairwoman, and thank you, Mr. 
Secretary, for staying so long. I am sure it won't be long now. 
I mentioned in my opening remarks the Drive Act, which I am 
doing with Congressman Kingston, which is H.R. 607 in this 
Congress. We dropped it in last year as the Kingston-Engel Bill 
and we dropped it in this year, given the change in the 
politics in the House as the Engel-Kingston Bill but the 
important thing is, is that it is a bipartisan bill and we are 
trying to get as many people on both sides of the aisle on the 
bill. I really think that the administration can go a long way 
in helping us to pass this bill. Everybody is talking about 
energy independence. The President mentioned it in his State of 
the Union last year, albeit briefly, and then mentioned it more 
extensively this year. I spoke to the President after the State 
of the Union about our bill when he was coming off and last 
week at the Democratic retreat I spoke with the President about 
it again and I think that this is something that we really can 
make a difference in. It is modest but it is something I think 
that is really doable, and last year frankly some of us went to 
the White House to speak with the President and some of his 
aides. They told both me and Congressman Kingston that there 
would be follow-up, and there really wasn't. So I am hoping 
that don't kind of fall into that this year. We believe that 
our bill would save 2\1/2\ million barrels of oil a day by 2015 
and 5 million barrels by 2025, which is right in line with what 
the President said in his State of the Union, and what our bill 
does, it helps U.S. automakers manufacture more-efficient 
vehicles and provides the same performance consumers expect, so 
it is breaks both for the industry and for consumers in terms 
of encouraging people to buy these cars.
    Secretary Bodman. How does it do it, sir? What does the 
bill provide?
    Mr. Engel. Well, the bill provides tax incentives and tax 
breaks for people who purchase these cars, for the industry to 
make these cars. It mandates incentives for cellulosic 
biofuels, creates an alternative fueling infrastructure, funds 
for installation of alternative-fuel pumps and things like 
that, and it provides incentives, tax breaks to purchase these 
things. We don't think it is an end-all and a be-all and 
obviously we have got to build from there but we think it is a 
great start, and we think it is a great bipartisan start and it 
is a modest start and I really think this would be a great 
thing. Another thing that is done in the bill is we talk about 
plug-in hybrid vehicles. It incentivizes the rapid 
commercialization of it, and I am wondering if DOE has 
formulated plans to do that. Batteries of plug-in vehicles are 
very expensive, and we want to see if we can bring down the 
cost of batteries. So I am wondering if you can talk about 
that, and I was a bit disturbed when I saw that the DOE cut its 
funding request for vehicle efficiency research by $8 million. 
That disturbed me a bit. I mean, $8 million isn't a lot of 
money but it is sort of an indication of what is important and 
what is not. So I am wondering if you can----
    Secretary Bodman. Everybody has different comparisons they 
are using with either the year before or 2 years before. My 
number on vehicle technology is $176 million, up from $166 
million, $10 million more than the 2006 request. It is true 
that it was $182 million in 2006, so depending on what one 
compares it with, it is up. Battery technology is up some $15 
million according to within that, up some $27 million, so we 
are working to expand our efforts, research efforts with 
respect to batteries.
    Mr. Engel. OK. I would like to obviously have more 
discussions with you and your staff about this. I have one 
final question, which is a somewhat parochial question. Indian 
Point nuclear power plant in New York--and by the way, in your 
opening remarks I listened very carefully. You said that the 
administration looks at nuclear power as an important 
component.
    Secretary Bodman. Yes, it is.
    Mr. Engel. I agree with that, and I never uttered a word 
about Indian Point until after the September 11 attacks in 2001 
when we learned that one of the planes that hit the World Trade 
Center flew directly over the Indian Point nuclear power plant 
which is less than a 50 mile radius from Manhattan, and of all 
the power plants in the country, that is the plant that is the 
closest to any major metropolitan area, and of course, it is 
not just any metropolitan area, it is the New York City 
metropolitan area. So we are concerned and they are up for re-
licensing and I am very unhappy with NRC rubberstamping, what I 
regard as rubberstamping all these things. It may be approved. 
I know my time is up and I just want to ask you quickly, you 
mentioned Yucca Mountain in your opening remarks, and what is 
the plan, since Yucca Mountain, if it is ever built, is so far 
away and keeps getting pushed back. What happens with the spent 
fuel at all these plants across the country that really have no 
real place to go?
    Secretary Bodman. Your question is, what happens if I get 
Yucca Mountain open?
    Mr. Engel. Well, I think Yucca Mountain is not going to 
open for a long time.
    Secretary Bodman. Well, we have it at 10 years out and the 
status quo would be unless Congress decides something other 
than that would be the way it is situated the way it is now. 
Once we get a license, under the Nuclear Waste Policy Act, we 
are given permission to discuss interim storage but I am 
precluded from doing interim storage until I get a license. 
That is just the way is written and so assuming I file and we 
get a license in a reasonable period of time, you will be 
talking to a new secretary. I won't be here but the secretary 
would then be in a position to deal with this matter at that 
point in time, would deal with interim storage and you start 
setting this up. I sure wouldn't create 30 different sites the 
way one of the bills that was around last year suggested. It 
has to be a smaller number.
    Ms. DeGette. The gentleman from Arkansas, Mr. Ross, is 
recognized for 5 minutes.
    Mr. Ross. Thank you, Madam Chair, and Mr. Secretary, thank 
you for joining us here today. One, let me just say that I am 
extremely disappointed that the administration is cutting the 
weatherization assistance program from $242 million in fiscal 
years 2006 and 2007 to $140 million in fiscal year 2008. The 
Department of Energy has called it our Nation's ``most 
successful energy efficiency program'' and yet we are seeing 
this type of dramatic cut on America's working families, 
especially the working poor. It is about priorities, and I 
think this gives us an idea of the priorities unfortunately of 
this administration. You did mention in your testimony, sir, 
that in fiscal year 2008 there is going to be $180 million 
spent on cellulosic ethanol research. My numbers indicate it is 
actually $179 million, and you pointed out that that is 
actually an increase over last year, and you are right, it is. 
It is a $29 million increase over 2007. These are big numbers, 
at least where I come from, in Hope, Arkansas.
    Secretary Bodman. I agree with that, sir.
    Mr. Ross. So let me put them in perspective in a way that I 
would understand them and hopefully a lot of us will get a 
greater perspective as we talk about priorities. The entire 
cellulosic ethanol research budget is equal to less than 15 
hours of the amount of money we are going to spend in Iraq. We 
will spend more money in Iraq in the next 15 hours than we are 
going to spend in fiscal year 2008 on cellulosic ethanol 
research. I think that more clearly puts into perspective what 
our priorities really are in investing in alternative renewable 
fuels. We talk about it a lot. The administration talks about 
weatherization a lot and yet they cut the weatherization 
funding. They talk about research and development a lot and 
then they cut--if not cut, certainly do not properly fund 
cellulosic ethanol research. I am absolutely convinced--and by 
the way, the $29 million increase over 2007 for cellulosic 
ethanol research amounts to about 3 hours of the amount of 
money--we will spend more money in the next 3 hours in Iraq 
than we are going to spend on the increase. So that is a couple 
numbers to put that into perspective. The reason I raise that 
is because I represent 29 counties in Arkansas, about half the 
State, 21,000 square miles, and in that area, included in that 
is a number of counties that fall within the delta region, one 
of the poorest regions in the country. Husbands and wives 
combined have an annual income of less than $29,000 a year, and 
I really do believe that as a Nation if we will properly invest 
in alternative renewable fuels like ethanol and particularly 
ethanol from cellulosic-based products, we can realize an 
economic revival in the delta region of our country.
    Finally, 2 weeks ago, Mr. Secretary, you said that the U.S. 
tariff on ethanol imports probably would be lifted to meet 
President Bush's goal of increasing the use of renewable fuels. 
I am quoting you, ``We are probably going to need to remove the 
tariffs so we can enforce more,'' and that was your quote from 
a roundtable discussion at the World Economic Forum in 
Switzerland. Based on your testimony today, perhaps you have 
reversed that position, but my question is this: In order to 
meet the President's goal of producing 35 billion gallons of 
renewable and alternative fuel by 2017, it is necessary to 
maintain and create incentives that are favorable to continue 
an expanded investment in renewable fuels. However, your recent 
comments suggesting that the ethanol tariff be discontinued 
seem contradictory to that goal. Your statement seemed to 
suggest that this county will be exchanging a dependence on 
foreign oil for a dependence on foreign renewable fuel. How 
does trading one source of foreign energy for another reconcile 
with our goal of energy independence? Further, I am concerned 
that the administration continues to support tax incentives for 
oil and gas companies arguing that they are necessary to 
achieve energy independence but disavow similar treatment to 
the renewable and alternative fuels that you yourself, sir, 
stipulate will displace 15 percent of projected gasoline usage 
by 2017? You suggest that you support a decrease in foreign oil 
tankers in our ports but an increase of foreign ethanol 
tankers. Again, sir, how does this trading one source of 
foreign energy for another meet the goal of energy 
independence? Thank you.
    Secretary Bodman. One, I will try to answer. You have asked 
a number of questions. Oil and gas, neither the President nor I 
support tax incentives for oil and gas companies. I have said 
that multiple times. That is not something the President 
advocated. It wasn't in the proposal and it was put in by those 
who wrote the law, so that is comment one. Comment two, I was 
quoted as having said what I said. I didn't say that, and what 
I said was and what I meant was, that this administration is an 
advocate for us looking at the question of both the subsidy and 
the tariff closer to the time when they run out so that we can 
then analyze it and work together to try to come up with 
something that makes sense. We have had a very strong response 
on the subsidy side. We have a lot of ethanol that is being 
manufactured in this country. One of the questions will be, how 
much, how far, how fast, and we are also going to get a sense 
of whether or not we are able to get cellulosic ethanol 
commercialized. We are expecting that to happen over next 
couple of years so we are working toward that end and so I have 
an optimistic view.
    I will conclude by saying I am the one that made the 
judgment on weatherization and I understand that it is painful 
for some citizens in our country. I am able to do so much with 
the money I have allocated to me and I made the judgment that I 
made, and that is why are you looking at the proposal that I 
made.
    Ms. DeGette. Last but never, ever least, the chair is 
pleased to recognize the gentlelady from Oregon, Ms. Hooley.
    Ms. Hooley. Thank you, and thank you, Mr. Secretary, for 
your patience and your answers. There are a couple things I 
want to address, or have you address. One is, I also am from 
the Northwest and BPA is an important part of our economy. What 
the President's budget asks to do will increase 11 percent for 
ratepayers, their energy prices at a time that we just sort of 
recovered from a downturn in our economy. This would be 
devastating to our region. This is an agency that has never 
missed a payment to the Government in 23 years, and in fact has 
prepaid $1.8 billion without raising in the last 6 years and we 
need that flexibility, and I know you addressed that when you 
were talking to Representative Walden, but again, I just want 
to emphasize our important BPA is to our economy, and having 
this happen would just be devastating.
    Secretary Bodman. I appreciate your views, ma'am.
    Ms. Hooley. There are some questions I have. First of all, 
we have a lot of small businesses that are looking at putting 
together biodiesel biomass programs. There are clearly some 
missing pieces, distribution, having in the case of crushing 
seeds with canola. That is a problem. Do you think it is 
appropriate that where you have a viable source that is cost-
effective and again to get us to that energy independence for 
the Government to step in and say here are the missing pieces, 
this is where we are going to help out, provide incentives, 
provide grants, provide loans?
    Secretary Bodman. That is what we are trying to do. We are 
trying to do it in a cost-effective way. We are trying to do it 
by doing research, particularly on cellulosic ethanol, so that 
we can crack the code, if you will, and see that we develop 
processes that can be used by regions like Oregon, that have 
potential of growing cellulose in that region and making use of 
it, and perhaps you are already are growing it in the region 
and would make use of it. So we are trying to do the research. 
We are also trying to work with companies to encourage them to 
do research through growing efforts with us and we are having 
some success in that endeavor, so I think there are areas where 
we are I think having very good programs that hopefully will 
deal with the question you raised.
    Ms. Hooley. One of my universities, Oregon State 
University, has been doing a lot of research on wave energy. 
Our State is obviously a State that is ripe for wave energy. 
What do you see a role for that in the future?
    Secretary Bodman. I would be kidding you if I said I knew 
very much about wave energy. I know that your university is 
leading the activity in that area. I do know of all places from 
Utah there is activity with a professor at the University of 
Utah that also has an interest in this. I would be happy to put 
you in touch with our assistant secretary for renewable energy 
because he deals with this on a--Andy Carther deals with this 
every day and--not every day but once a week he has got various 
activities involved in this. So I would be happy to have you 
deal with him.
    Ms. Hooley. I would like to have a conversation.
    Secretary Bodman. OK.
    Ms. Hooley. And then my last question is, the two big 
issues that are going to be talked about over and over and over 
again in this Congress is energy independence, making sure that 
we have our own energy supply in this country, and the other 
issue is going to be climate change, global warming. I was just 
in the Science Committee that had a hearing on this. Are you 
looking at how do those two--as we develop our energy 
independence, is it also going to be good for climate change 
and global warming and what we need to do in that area? Are we 
coordinating these two efforts?
    Secretary Bodman. In most cases, they are very compatible, 
not in every case as was mentioned on coal-to-liquids. I mean, 
that is an issue we have to deal with, how to sequester carbon 
dioxide coming from the coal. But that is what we are doing 
because we have so much coal and so I think that is worth 
looking at. But other areas, for example, cellulosic ethanol, 
85 percent of the carbon that is emitted from the tailpipe of 
the car is saved because the plant, the switchgrass or whatever 
plant grows, grows by absorbing carbon dioxide as part of the 
photosynthesis process and it is very efficient and very 
effective in doing that and so only 15 percent of it is lost, 
85 percent of it is gained and so you have a big additional 
advantage in cellulosic ethanol and that is directly in line 
with the President's proposal.
    Ms. Hooley. Thank you, Mr. Secretary, for your patience and 
for being here today.
    Secretary Bodman. Thank you very much.
    Ms. DeGette. Mr. Secretary, thank you so much for appearing 
in front of us and answering all of our questions so 
thoroughly. We look forward to working with you and the rest of 
the Congress.
    Secretary Bodman. Thank you very much.
    Ms. DeGette. The hearing is adjourned.
    [Whereupon, at 1:20 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

</pre></body></html>
